U.S. Small Business Administration
Office of Inspector General

 _________________________________


       Semiannual Report to Congress 

               Spring 2010 





       October 1, 2009 – March 31, 2010 

  Inspector General Act Statutory Reporting Requirements


The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended, are
listed below.


Source                                                                                       Page

Section 4(a)(2)    Review of Legislation and Regulations                                         22

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                              3-22

Section 5(a)(2)    Recommendations with Respect to Significant Problems,
                   Abuses and Deficiencies                                                    33-39

Section 5(a)(3)    Prior Significant Recommendations Not Yet Implemented                      31-32

Section 5(a)(4)    Matters Referred to Prosecutive Authorities                                52-56

Sections 5(a)(5)   Summary of Instances Where Information Was Refused                         None
and 6(b)(2)

Section 5(a)(6)    Listing of OIG Reports                                                     25-26

Section 5(a)(7)    Summary of Significant Audits & Other Reports                               3-22

Section 5(a)(8)    Audit Reports with Questioned Costs                                           27

Section 5(a)(9)    Audit Reports with Recommendations that Funds Be Put to
                   Better Use                                                                    27

Section 5(a)(10)   Summary of Reports From Prior Semiannual Reports
                   Where No Management Decision Was Made                                         28

Section 5(a)(11)   Significant Revised Management Decisions                                      19

Section 5(a)(12)   Significant Management Decisions with Which
                   the OIG Disagreed                                                             19

Section 5(a)(13)   Information Described Under Section 05(b) of the Federal
                   Financial Management Improvement Act of 1996                                N/A
                               U.S. SI\ I ALL BUSI NESS AOi\IIN ISTRATION 
 

                                  OFFICE OF l NsPEc.TOR GENERAL 

                                        WASI-IINGTON, D.C. 204 16 
 





                                                 April 20 10



[ am pleased to present the U.S. Small BusiOl.:ss Administration (S BA) Office of Inspector General (OIG)
Spring 2010 Semiannual Report to Congress, which provides a summ.1ry of thc OIG's activities from
October I, 2009 through March 31 , 2010.

This semiannual pcriod corresponded with my first six months as SBA Inspector General-having been
sworn in on October 2, 2009. I have quickly come to appreciate the outstanding work of the OIG ' s
rnanagemcnt and staff in providing quality auditing, invcst iga tivc, and othcr scrvices to support and assist
SBA in achieving its mission. During this rcporting period, thl'Se efforts resulted in 22 reports containing
93 recommendations for improving Agency opcrations, reduc ing fTaud and unnecessary losses in SBA
programs, and recovering improper payments. In addit ion, OIG investigations continued to focu s on
wrongdoers who employ a variety of methods to fraudulentl y obtain loans from SBA and its lendcrs,
resulting in 53 indictments and 14 convictions. Overall, thc OIG achieved monetary recoveries and
savings of ovcr $33 million from disallowed costs agreed to by management. recommendmions that funds
be put to better usc agrecd to by management, court ordered and other investigative recovcries and fi nes,
and loans/contracts not nl.1de as a result of investigat ions and name checks.

The American Recovery and Rein vcstment Aet of2009 (Recovery Act), which was signed into law on
February 17, 2009, contains a number ofSBA provisions intellded to help unlock credit markets and
promote economic recovery for the nation 's snl.1 11 business sector. The OIG continued to work
proactively with the Agency to identify risks and recommend cost effcctive controls to help prcvent fraud,
waste, and abuse, and ensure that program goa ls arc achieved and sti mulus funds arc accurately tracked
and reported. During th is semiannua l reporting period, thc OIG issucd 12 Recovery Oversight
Memorandum (ROM) reports, which provided the Agency with notification of deficiencies as problems
were identified during OIG audits and reviews.

Also during this reporting period, the OIG issued its Fiscal Year 20 I0 Report Oil the Mosl Serious
Management and Performance Challenges Facing SBA_ Thi!> year's report included two new challenges
dealing with ( I) the Agency' s Lo.:1n Management and Accounting System (LM AS) proj cct and
(2) improper paymcnts in the Disaster and 7(a) loon programs. While the Agency has made considerable
progress in addressing its management challenges, much remains to be done.

[ appreciate thc coopcrmion and support providcd by SBA's Administrator, Karen Mills, and the entire
SBA leadership team, during my firs t six months as Inspector General. I look forward to continu ing to
work closcly with SBA 's leadership to promote t:conomy, efficicncy, effcctivcness, and integrity in the
Agency's prOb>Tams and operation.




Peggy E. Gustafson
Inspector General
                                                          Table of Contents



Overview of SBA and the OIG ............................................................................................................................. 1 


Agency Management Challenges ......................................................................................................................... 3 


Recovery Oversight .............................................................................................................................................. 5 


Small Business Access to Capital ......................................................................................................................... 6 


Disaster Loan Program ....................................................................................................................................... 13 


Small Business Development, Contracting, Education and Training ................................................................. 16 


Agency Management .......................................................................................................................................... 18 


Other Significant OIG Activities. ....................................................................................................................... 21 


Statistical Highlights........................................................................................................................................... 23 


Appendices



        I.        OIG Reports Issued ........................................................................................................................ 25 


       II.        OIG Reports with Questioned Costs .............................................................................................. 27 


      III.        OIG Reports with Recommendations that Funds Be Put to Better Use ......................................... 27 


     IV.          OIG Reports with Non-Monetary Recommendations .................................................................... 28 


       V. 	       OIG Reports from Prior Semiannual Periods with Overdue Management

                   Decisions as of September 30, 2008 ........................................................................................... 28 


     VI.          OIG Reports Without Final Action as of March 31, 2010 ............................................................. 29 


    VII. 	        Summary of Significant Recommendations from Prior Semiannual Reporting

                    Periods Without Final Action as of March 31, 2010................................................................... 31 


   VIII.		        Summary of Significant Recommendations, 

                    October 1, 2009 through March 31, 2010 ................................................................................... 33 


     IX. 	        Events/Activities Where SBA Used its Cosponsorship Authority,

                   October 1, 2009 through March 31, 2010 ................................................................................... 40 


       X.         Legal Actions Summary, October 1, 2009 through March 31, 2010.............................................. 52


      XI.         OIG Organization ........................................................................................................................... 57 





                                                                                 i
                                            Table of Contents



Additional Semiannual Legislative Reporting Requirements from the Small Business Act, as Amended:

        SBA Cosponsorship and Fee-Based Administration-Sponsored Events—Small 

        Business Act, Section 4(h) .................................................................................................. 20, 40-51 


        SBDC Surveys—Small Business Act, Section 21(a)(7) ................................................................ 17 


        SBA Gift Authority—Small Business Act, Section 4(g)(2) ........................................................... 20 





                                                                 ii                                                                       

                                      Glossary of Abbreviations



ANC       ................................................................................................................. Alaska Native Corporation 

BD        ....................................................................................................................... Business Development 

CDC       ....................................................................................................... Certified Development Company 

CID       ........................................................................................................ Criminal Investigations Division 

CIO       ................................................................................................................... Chief Information Officer


CMOP      ............................................................................................ Consolidated Mail Outpatient Pharmacy 

DO        ..................................................................................................................................... District Office


e200      ...................................................................................................................... Emerging 200 Initiative


EIDL      .......................................................................................................... Economic Injury Disaster Loan 

FAR       .......................................................................................................... Federal Acquisition Regulation


FBI       ..........................................................................................................Federal Bureau of Investigation


FPDS      ......................................................................................................Federal Procurement Data System


GAO       ............................................................................................................ General Accountability Office


HUBZone   .......................................................................................... Historically Underutilized Business Zone 

HUD       .............................................................................. Department of Housing and Urban Development


IRS       .................................................................................................................... Internal Revenue Service


NCDF      ..................................................................................................... National Center for Disaster Fraud 

NDI       ........................................................................................................... Non-Disadvantaged Individual


NFR       ............................................................................................ Notice of Finding and Recommendation


ODA       ..............................................................................................................Office of Disaster Assistance


OIG       ................................................................................................................ Office of Inspector General


OMB       .....................................................................................................Office of Management and Budget


ONDCP     ............................................................................................. Office of National Drug Control Policy


PCL       .................................................................................................................... Premier Certified Lender


PII       .................................................................................................... Personally Identifiable Information


QA        ...............................................................................................................................Quality Assurance


IV&V      ............................................................................................ Independent Verification and Validation


ROM       .....................................................................................................Recovery Oversight Memorandum


SBA       ...........................................................................................................Small Business Administration 

SBDC      ..................................................................................................Small Business Development Center


SBIC      .................................................................................................Small Business Investment Company


SBIR      .................................................................................................. Small Business Innovation Research


SCORE     .................................................................................................. Service Corps of Retired Executives


SDB       ........................................................................................................... Small Disadvantaged Business 

SDM       .................................................................................................. Systems Development Methodology 

SOP       .......................................................................................................... Standard Operating Procedures 

STTR      ................................................................................................. Small Business Technology Transfer 

USSS      ............................................................................................................... United States Secret Service


WBC       .................................................................................................................. Women's Business Center 

WVDA      .................................................................................... West Virginia Department of Administration 





                                                                        iii
                           Overview of SBA and the OIG 


The Small Business Administration

The mission of the Small Business Administration (SBA) under the Small Business Act, as amended, is to
maintain and strengthen the Nation’s economy by enabling the establishment and vitality of small
businesses and assisting in the economic recovery of communities after disasters. The Agency’s current
strategic plan has three programmatic strategic goals that broadly define what the Agency and its
programs are trying to accomplish.

    ¾ Expand America’s ownership society, particularly in underserved markets.
    ¾ Provide timely financial assistance to homeowners, renters, nonprofit organizations and
      businesses affected by disaster.
    ¾ Improve the economic environment for small business.

A fourth goal in SBA’s strategic plan defines the responsibility of the Agency’s executive leadership and
support functions to help accomplish the three programmatic goals.

    ¾ Ensure management and organizational excellence to increase responsiveness to customers,
      streamline processes, and improve compliance and controls.

SBA is organized around four key functional areas: financial assistance (e.g., loan programs); contracting
assistance; technical assistance (e.g., entrepreneurial development); and disaster assistance. The Agency
also represents small businesses through an independent advocate and an ombudsman. SBA headquarters
is located in Washington, D.C., while its business products and services are delivered with the help of
10 regional offices, 68 district offices, 4 disaster field offices, and a vast network of resource partners in
all 50 states, the District of Columbia, Puerto Rico, American Samoa, the U.S. Virgin Islands, and Guam.
As of March 31, 2010, SBA had 5,148 employees, including 119 Office of Inspector General (OIG)
personnel and 2,840 disaster-funded employees for disaster loan making and disaster loan servicing.

The Office of Inspector General

Pursuant to the Inspector General Act of 1978, as amended, the OIG adds value to SBA programs and
operations by providing auditing, investigative, and other services to support and assist the Agency in
achieving its mission. In addition to its responsibilities under the IG Act, the OIG carries out other
significant statutory responsibilities and Government-wide mandates, including responsibilities under the
Small Business Act and the Small Business Investment Act.

The OIG seeks to improve SBA programs by identifying key issues facing the Agency, following up to
ensure that corrective actions are taken, and promoting a high level of integrity. The Office’s efforts and
accomplishments during the first half of Fiscal Year 2010, which are summarized in this report, focused
on the two strategic goals in the OIG’s strategic plan.

    ¾ Improving the economy, efficiency, and effectiveness of SBA programs and operations.
    ¾ Promoting and fostering integrity in SBA programs and operations.

Using this framework, the OIG concentrated on critical risks facing SBA, including (1) risks of financial
losses due to limited oversight and controls; (2) risks to SBA's performance of its statutory mission to




                                                    1

                          Overview of SBA and the OIG 


promote small business development and Government contracting; and (3) risks associated with SBA's
information technology and financial management systems and other internal operations.

Audit and other reports issued during this reporting period are listed in Appendix I. Investigative actions
are summarized in Appendix X. Copies of OIG reports and other work products are available on the
OIG’s website at http://www.sba.gov/ig.




                                                  2

                        Agency Management Challenges 


Overview

In accordance with the Reports Consolidation Act of 2000, the OIG each year identifies the most serious
management and performance challenges facing the Agency for inclusion in SBA’s Performance and
Accountability Report. The Management Challenges represent areas that the OIG considers to be
particularly vulnerable to fraud, waste, abuse, or mismanagement, or which otherwise pose significant
risk to the Agency, its operations, or its credibility. Each Management Challenge generally has originated
from one or more OIG or Government Accountability Office (GAO) report(s). For each Management
Challenge, the OIG provides the Agency with recommended remedial actions together with an assessment
of Agency progress on each recommended action during the preceding fiscal year.

SBA’s Top Management Challenges

The Management Challenges identified in the OIG’s Fiscal Year 2010 report, issued on October 16, 2009,
were as follows.

    ¾   Procurement flaws allow large firms to obtain small business awards and agencies to count
        contracts performed by large firms towards their small business goals.
    ¾   Weaknesses in information systems security controls pose significant risks to the Agency.
    ¾   Effective human capital strategies are needed to enable SBA to successfully carry out its mission
        and become a high-performing organization.
    ¾   SBA needs better controls over loan purchase and liquidation processes.
    ¾   SBA needs to further strengthen its oversight of lending participants.
    ¾   The Section 8(a) Business Development program needs to be modified so more firms receive
        business development assistance, standards for determining economic disadvantage are clear and
        objective, and SBA ensures that firms follow 8(a) regulations when completing contracts.
    ¾   Insufficient and outdated SBA controls contribute to excessive risk of the SBIC program.
    ¾   Effective tracking and enforcement would reduce financial losses from loan agent fraud.
    ¾   SBA needs to modernize its Loan Accounting System and migrate it off the mainframe.
    ¾   SBA needs to accurately report, significantly reduce, and strengthen efforts to recover improper
        payments in the Disaster and 7(a) loan programs.

As in prior years, the Fiscal Year 2010 report used a color-scoring scheme to show the Agency’s progress
in addressing the actions needed to resolve each Management Challenge. The chart on the next page
provides a summary of SBA’s progress for each of the ten Management Challenges in the Fiscal
Year 2010 report.




                                                  3

                          Agency Management Challenges 



                      Summary of SBA’s Fiscal Year 2010 Management Challenges
                                                               Status Score
                              Topic                Green      Yellow Orange          Red         Improved
        1           Small Business Contracts                    2         1                          1
        2           IT Security                                 4                                    0
        3           Human Capital                               3                                    0
        4           Loan Guaranty Purchase                      1         1                          0
        5           Lender Oversight                            2         4                          0
        6           8(a) BD Program                   1         4                                    3
        7           SBIC Program                      2         2                                    2
        8           Loan Agent Fraud                                      2                         -- 1
                    Loan Management and
        9                                                                                           New
                    Accounting System
       10           Improper Payments                                                               New
                       TOTAL                          3         18          8         0               6
            Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress
             “Improved” refers to an action item that showed progress this year over last year’s score.




1
  Management Challenge 8, Loan Agent Fraud, was revised in Fiscal Year 2009 to include two new recommended
actions. Consequently, no color scores were shown for these two remaining recommended actions in last year’s
report against which to measure progress.


                                                      4
                                    Recovery Oversight



The American Recovery and Reinvestment Act of 2009 (Recovery Act), which was signed into law on
February 17, 2009, contains a number of SBA provisions to help unlock credit markets and promote
economic recovery for the Nation’s small business sector. These include reduced loan fees, higher
guaranties, new SBA credit programs, secondary market incentives, and enhancements to current SBA
programs. To enhance transparency and accountability, the Recovery Act and related guidance require
increased reporting and oversight to deter and detect fraud, waste, and abuse and ensure that program
goals are met.

The OIG has worked proactively with the Agency to identify risks and recommend cost effective controls
to help prevent fraud, waste, and abuse, and ensure that program goals are achieved and stimulus funds
are accurately tracked and reported. The OIG has focused on determining whether (1) Recovery Act
loans approved by lenders or SBA personnel have complied with Agency underwriting standards and loan
program policies and procedures, and (2) SBA has planned for and awarded Recovery Act contracts in
compliance with Federal requirements, including the President’s directive to promote competitive awards.

During this semiannual reporting period, the OIG issued 12 Recovery Oversight Memorandum (ROM)
reports, which provided the Agency with notification of deficiencies as problems were identified during
OIG audits and reviews. Areas assessed by the OIG included the Recovery Act’s impact on SBA lending;
controls over reporting of Recovery Act job creation and retention statistics; SBA’s administration of the
Microloan Program under the Recovery Act; origination and closing of Recovery Act loans; and SBA’s
readiness to review recipient reports on the use of Recovery Act funds. In addition, the scope of the audit
of SBA’s financial statements was expanded to include testing of certain transactions and system
enhancements related to SBA’s implementation of the Recovery Act.

The ROMs issues during this reporting period are listed separately in Appendix 1. OIG reports on SBA’s
implementation of the Recovery Act are summarized in the appropriate sections (i.e., Small Business
Access to Capital, Small Business Development, Contracting, Education and Training, and Agency
Management) of this semiannual report. Copies of the reports and other information regarding the OIG’s
Recovery Act oversight activities are on the OIG’s website at www.sba.gov/ig/recovery.




                                                    5

                        Small Business Access to Capital



As of March 31, 2010, SBA had a financial assistance portfolio of guaranteed and direct loans of more
than $90 billion. SBA’s largest lending program, and the principal vehicle for providing small businesses
with access to credit that cannot be obtained elsewhere, is the Section 7(a) Loan Guaranty Program. This
program relies on numerous outside parties (e.g., borrowers, loan agents, and lenders) to complete loan
transactions, with approximately 80 percent of loans being made by lenders to whom SBA has delegated
loan-making authority. Additionally, SBA has centralized many loan functions and reduced the number
of staff performing these functions. As SBA has placed more responsibility on, and given greater
independence to, its lenders, the need for oversight has increased significantly. The OIG continues to
identify weaknesses in SBA’s lender oversight efforts.

SBA’s 504 Loan Program provides small businesses with long-term, fixed-rate financing for the purchase
of land, buildings, machinery, and other fixed assets. Local economic development organizations
approved by SBA, and known as Certified Development Companies (CDCs), package, close and service
these loans, which are funded through a mix of funds from private sector lenders, proceeds from the sale
of SBA-guaranteed debentures, and borrower equity investment.

The Microloan Program provides small ($35,000 or less), short-term loans and technical assistance to
small business concerns as well as non-profit child-care centers. The assistance is provided by SBA-
funded, intermediary lenders, which are non-profit community-based organizations with experience in
lending and providing businesses with management and technical assistance. .

Through the Small Business Investment Company (SBIC) Program, SBA licenses and makes funds
available to venture capitalists known as SBICs. SBICs lend or otherwise invest in small businesses
using participating securities made up of contributions from SBA and private investors or funds generated
through the sale of SBA-guaranteed debentures.

Recovery Act’s Impact on SBA Lending

During an initial review of the Recovery Act’s impact on SBA lending, the OIG determined that both 7(a)
and 504 lending increased sharply under the Recovery Act—from March 2009 to July 2009, 7(a) and 504
loan approvals jumped 39 percent and 73 percent, respectively. While this improvement was significant,
both 7(a) and 504 loan approvals remained below 2008 and 2007 levels. Small and medium-sized lenders
in the 7(a) program recovered more quickly—with loan activity returning to previous-year levels—and
took on a larger share of SBA lending. As a result, loan activity was more widely dispersed under the
Recovery Act, with the top 20 lenders accounting for only 38 percent of all 7(a) loans (excluding loans
made under the SBAExpress Program), as compared to 53 percent in 2007.

The OIG also found that a higher percentage of loans were made with SBA prior approval, rather than on
a delegated basis, than in previous periods. This trend could strain Agency staffing resources and impact
program risk. In the 7(a) program, the number of SBA-approved loans more than doubled from March to
July. Without adequate training and supervision, the increased demands on SBA loan center staff could
lessen the quality of Agency loan reviews. The shift towards SBA-approved loans was also substantial in
the 504 program, with the share of Agency-approved loans jumping to 94 percent of total loan approvals,
from 80 percent two years prior. Efficiency gains in Agency processing times, combined with weaker
economic conditions, may have reduced the incentive for CDCs to use their delegated authority to
approve loans.




                                                   6

                         Small Business Access to Capital



SBA management generally agreed with the report’s findings and noted that, in anticipation of the
increased loan transactions under the Recovery Act, the Agency recruited staff with previous lending
experience and expertise that would be able to process loans faster than less experienced new hires.
Additionally, the Agency noted that it would continue to actively monitor 504 program performance in
light of increases in SBA-approved loans.

Controls over Reporting of Recovery Act Job Creation and Retention Statistics

The Recovery Act provided SBA with $730 million to expand the Agency’s lending and investment
programs and create new programs to stimulate lending to small businesses. The additional funding was
intended to stimulate the economy by promoting job creation and preserving existing jobs. SBA selected
job creation and retention as one of its performance measures to assess the success of its Recovery Act
programs.

Based on a review of the job creation and retention statistics for Recovery Act loans approved in July
2009, the OIG estimated that the SBA-reported number of jobs created and/or retained may have been
overstated by at least 16 percent. Job data was self-reported by borrowers on SBA 7(a) loan applications
and SBA did not require lenders to validate the borrower-reported information. The OIG’s report
included recommendations that SBA implement better controls to check the reasonableness of job data
and a data quality review and testing process to determine if job data is properly recorded, classified, and
reported.

SBA’s Administration of the Microloan Program under the Recovery Act

Under the Recovery Act, SBA received $6 million for direct loans and $24 million for marketing,
management, and technical assistance grants for the Microloan Program. These funds were in addition to
the $22.5 million that SBA was appropriated for the Microloan Program in Fiscal Year 2009. The OIG
conducted an initial review of SBA’s administration of the Microloan Program under the Recovery Act to
determine the adequacy of the Agency’s (1) oversight of intermediaries, (2) performance data, and
(3) program metrics for managing the Recovery Act funds authorized for the Microloan Program. The
OIG found that SBA had not conducted adequate program oversight, validated the reliability of program
data, accurately reported program performance, or established meaningful outcome-oriented performance
measures. The OIG made a number of recommendations to promote more effective monitoring of and
performance measures for microloans made with Recovery Act funds.

Origination and Closing of Recovery Act Loans

The OIG reviewed a statistical sample of 30 SBA-approved and 30 lender-approved 7(a) loans that were
made under the authority of the Recovery Act to (1) determine whether loans were originated and closed
in compliance with SBA policies and procedures, and (2) identify any evidence of suspicious activity. In
order to provide the Agency with early notification of deficiencies as problems were identified, the OIG
issued four Notices of Finding and Recommendation (NFRs), which are summarized below.

    •		 Recovery Act Loans Involving Change of Ownership Transactions. The OIG identified
        deficiencies in SBA’s approval of four Recovery Act loans—totaling approximately
        $2.1 million— that involved change of ownership transactions. One loan was not eligible for an
        SBA guaranty because it did not result in the borrower owning 100 percent of the business.



                                                     7

                         Small Business Access to Capital



        Eligibility for the other three loans was questionable due to the excessive amount of goodwill
        financed in each transaction. Based on a statistical projection of these loans, the OIG estimated
        that the Agency inappropriately approved at least $6.6 million in SBA loans between
        February 17, 2009 and May 31, 2009.

    •		 Recovery Act Loans Disbursed Without Required Borrower Immigration Certifications. The
        OIG found that 14—or 47 percent—of lender-approved loans reviewed did not contain the SBA-
        required borrower immigration certifications. Based on a statistical projection of these loans, the
        OIG estimated that at least $215 million in SBA Recovery Act loans were approved between
        February 17, 2009 and May 31, 2009, without obtaining the required borrower certifications of
        compliance with immigration laws.

    •		 Ineligible Lender-Approved Recovery Act Loans. The OIG identified three lender-approved
        loans that were not eligible for SBA guaranties. One lender canceled a portion of an SBA-
        guaranteed loan approved prior to the Recovery Act and, without SBA approval, reissued it as a
        Recovery Act loan with a higher SBA guaranty. A second loan was ineligible for an SBA
        guaranty because (1) it resulted in the borrower’s maximum outstanding loan balance exceeding
        the SBA limit, and (2) the interest rate on the loan was higher than allowed by SBA. Finally, a
        third loan was not eligible for an SBA guaranty because the lender did not comply with SBA’s
        change of ownership requirements. Specifically, the lender did not (1) perform a business
        valuation, (2) conduct a site visit of the assets being purchased, or (3) verify the seller’s financial
        information. Based on a statistical projection of these loans, the OIG estimated that lenders
        inappropriately approved at least 63 SBA-guaranteed loans between February 17, 2009 and
        May 31, 2009.

    •		 Material Origination and Closing Deficiencies in Recovery Act Loans. The OIG identified
        miscellaneous material origination and closing deficiencies in three SBA-approved loans and
        one lender-approved loan. The inappropriate approval of these loans, which totaled $2.4 million,
        both increased the risk of loss to SBA should the loans default and reduced the availability of
        SBA loans to other borrowers.

Underwriting Practices and Compliance of Premier Certified Lenders (PCL) in the CDC/504 Loan
Program

As discussed previously, under the CDC/504 Loan Program, SBA relies on non-profit CDCs to facilitate
long-term financing for small businesses to acquire or expand capital assets. Although most loans under
this program are subject to prior SBA approval, SBA has delegated underwriting authority to certain
CDCs known as Premier Certified Lenders (PCL). The OIG initiated a review of PCL underwriting
practices and compliance based on concerns that certain CDCs were engaging in risky underwriting
practices and that some CDCs were paying their executives excessive compensation.

The OIG reviewed a statistical sample of loans disbursed in Fiscal Year 2008 by three of the largest PCLs
and found that the PCLs may not have used prudent practices in approving and disbursing 68 percent of
the sampled loans—totaling nearly $8.9 million—due to poor loan underwriting and eligibility or loan
closing issues. Projecting the sample results to the universe of CDC/504 loans disbursed in Fiscal Year
2008 by the three PCLs, the OIG estimated that at least 572 loans—totaling nearly $254.9 million in
CDC/504 loan proceeds—had similar deficiencies. Of this amount, the OIG estimated that at least 183


                                                      8

                         Small Business Access to Capital



loans—totaling $56.4 million or more—were made to borrowers based on faulty repayment analyses.
Some of the poor underwriting and eligibility issues occurred because SBA’s guidance was unclear. The
OIG also estimated that at least $209 million in PCL loans involved borrower- eligibility issues and/or
loan closing problems.

Regarding CDC executive compensation, the OIG found that eight CDCs paid more than 20 percent
of their gross receipts towards executive compensation, and that one of these CDCs paid almost
44 percent. SBA regulations require that any excess funds remaining after payment of staff and
overhead expenses be retained by the CDC as a reserve for future operations or for investment in other
local economic activity. Therefore, high compensation expenditures reduce the amount of funds for the
reserve or for economic development activity.

The OIG recommended several policy and procedural changes to address the deficiencies identified
during the review.

Extensive Loan Fraud Investigation Results in More Convictions and Guilty Pleas

In 2007, the OIG and the U.S. Secret Service (USSS) agents arrested 18 individuals, including a lender’s
former executive vice president, for conspiring to use fraudulent information to qualify loan applicants for
SBA-guaranteed loans, mainly for the purchase of gas stations across several Midwestern states. The
scheme involved at least 89 fraudulent loans—totaling about $85 million—approved before the fraud was
discovered. The investigation is continuing with more indictments expected, but thus far 37 individuals
have been indicted or otherwise charged and 28 have been convicted. Four of those individuals are
international fugitives. To date, court-ordered restitution, SBA recoveries of loan guaranties from the
lender, and potential cost savings from the withdrawal of loan guaranties total approximately $72 million.

The following cases demonstrate the scope of the criminal activity.

    •		 A Michigan man pled guilty to conspiracy to commit wire fraud. He and a co-conspirator were
        previously charged with conspiracy, conspiracy to commit wire fraud, false statements, and
        aiding and abetting for falsifying equity injections and other documentation on twelve SBA-
        guaranteed loans. The man acted as a broker to recruit “straw buyers” to falsely obtain the loans,
        and the co-conspirator, an escrow agent, conducted the loan closings. Upon completion of the
        closings, the fraudulently obtained loan proceeds were wired from the lender to accounts held by
        the co-conspirator’s escrow companies. Prosecution of the co-conspirator is continuing, with
        additional indictments expected. SBA OIG is conducting this investigation jointly with the
        USSS.

    •		 A Michigan man was sentenced to 24 months incarceration and ordered to pay an SBA lender and
        another financial institution $4,572,929 and $1,100,000, respectively, in restitution. The
        restitution is to be paid jointly with other co-conspirators charged in the case. The man
        previously pled guilty to two counts of conspiracy to defraud SBA and a Michigan financial
        institution. The first count involved false statements on SBA-guaranteed loans made by lenders
        in Michigan and Tennessee. The false statements included counterfeit bank documents and
        checks used to verify the equity injection on at least nine SBA-guaranteed loans. The second
        count related to a scheme to use a non-sufficient funds credit card convenience check to obtain an
        official check of $1,680,000 from the financial institution. The official check was used to close


                                                     9

                         Small Business Access to Capital



        on the purchase of a Michigan house with the intent to promptly resell or “flip” the property to a
        straw buyer who would use 100 percent financing to pay a substantially inflated price for the
        house.

    •		 An Illinois man was sentenced to two years imprisonment, three years supervised release, and
        restitution of $2,008,964. He had previously pled guilty to making a false statement in
        connection with a scheme to induce a lender to approve three separate loans (including an SBA-
        guaranteed loan) totaling more than $4 million to purchase three Iowa gas stations. The
        investigation revealed that the individual and another man enlisted “front” borrowers and
        provided the lender with fraudulent documentation on behalf of the borrowers in order to
        influence the approval of the three loans. The second individual previously pled guilty after
        being charged in relation to this matter. The OIG is conducting this investigation jointly with the
        Federal Bureau of Investigation (FBI).

    •		 The former owner of an Illinois finance company was sentenced to 135 months imprisonment,
        five years supervised release, and restitution of $7.4 million. He previously pled guilty to
        providing false bank entries, reports, and transactions. Moreover, because he is not an American
        citizen, U.S. Immigration and Customs Enforcement planned to issue a “detainer” that would
        result in his deportation back to India after his imprisonment. The investigation revealed his
        involvement in a scheme to induce a lender and SBA to approve a $1.35 million SBA-guaranteed
        loan to one of his companies. He provided a false bank account verification letter and fraudulent
        cashier’s checks at the loan closing. In addition to obtaining an SBA loan for himself, he
        brokered 46 SBA-guaranteed loans—totaling $44,314,371—for others. He admitted that he
        provided false information to the lender on these loans. The OIG conducted this investigation
        jointly with the FBI.

Criminals Use a Range of Methods to Defraud Loan Guaranty Programs

Criminals use an array of methods to fraudulently obtain—or induce others to obtain—SBA-guaranteed
loans. Such methods include submitting fraudulent documents; making fictitious asset claims;
manipulating property values; using loan proceeds contrary to the terms of the loans; and failing to
disclose debts or prior criminal records. The result is a greater likelihood of financial loss to SBA and its
lenders. The following examples demonstrate some of these methods.

    •		 The former owner of a defunct Washington State disaster restoration contractor was sentenced to
        48 months in prison, 60 months supervised release, nearly $4,936,000 in restitution, and
        120 hours of community service after having pled guilty to mail fraud, bank fraud, money
        laundering, and criminal forfeiture charges. Over several years, he had submitted inflated and/or
        falsified invoices and false competitors’ estimates to an insurance company for disaster
        restoration work performed by his company. Consequently, the company received more than $3
        million in excess payments, and its financial statements reflected highly inflated profits. When
        the business was subsequently sold, the buyer obtained a $1,999,800 SBA-guaranteed loan to
        fund part of the sale, and the inflated financial statements were submitted to support the value of
        the business and the purchase price. The former owner then used the fraudulently obtained loan
        proceeds to purchase a $1.785 million home in Florida, which he has agreed to criminally forfeit.
        This investigation was conducted jointly with the Internal Revenue Service (IRS) Criminal
        Investigation Division (CID).


                                                     10 

                         Small Business Access to Capital



    •		 The part owner of a Colorado construction company was sentenced to 37 months in prison,
        60 months supervised release, and $975,424 in restitution after having pled guilty to submitting a
        false loan application. In order to receive two SBA-guaranteed loans totaling $1.35 million, he
        hid his criminal history. However, criminal history records showed that he had pled guilty to
        embezzling over $115,000 from a New Mexico industry group while serving as its executive
        director, and he also had pled guilty to a third-degree assault charge in 1994. The total estimated
        loss on the two loans was $970,000. The OIG conducted this investigation jointly with the FBI,
        which made the initial referral.

    •		 The president of a sports bar and mortgage brokerage firm in Georgia was indicted for bank fraud
        and for making false statements. The indictment alleges that, in conjunction with an application
        for a $1.8 million SBA-guaranteed loan, he submitted falsified IRS and SBA documents showing
        (1) gross sales of approximately $23 million for the mortgage brokerage firm, when actual
        reported sales were only about $250,000, and (2) no previous criminal history, when in fact he
        had been arrested and convicted on numerous occasions.

Indictment Unsealed in Complex Loan Fraud Scheme

A previously sealed indictment in Texas was unsealed as it relates to 13 defendants. The indictment
originally charged the individuals for their involvement in a complex loan fraud scheme. They allegedly
obtained numerous loans by making false statements and submitting fraudulent documents to SBA-
approved lending institutions. The defendants were charged with conspiracy to commit money
laundering, conspiracy to commit wire fraud, and/or money laundering/aiding and abetting. The
indictment also included a criminal forfeiture count of nearly $7,081,000. One defendant, a loan broker,
pled guilty to wire fraud. According to the investigation, he fraudulently represented himself as a
licensed insurance agent by signing a letter to induce a lender to issue an $870,000 SBA-guaranteed loan.
The loan subsequently defaulted. He also made fraudulent representations that induced two other
financial institutions to wire transfer funds related to residential mortgages. The OIG is conducting this
investigation jointly with the FBI and IRS CID.

False Equity Injection Continues to Affect Loan Programs

Equity (or capital) injection is a borrower’s own financial stake in a business. An individual is less likely
to default on a loan if he or she personally has something at risk in the business. SBA requires that
borrowers inject such available money into projects financed by guaranteed loans. Some borrowers
circumvent this requirement by falsifying the amount or source of such injections. For example, a
petroleum company (a Louisiana corporation) pled guilty in Texas to money laundering and was ordered
to pay a $200,000 fine for falsifying the true source of funds to support its required $120,000 equity
injection in order to secure a $480,000 SBA-guaranteed loan to purchase property. Before receiving the
loan, company representatives provided documentation purporting to show that the firm had met the
condition of providing an equity injection with the company's own money. These representations were
knowingly false, and the company never had the required funds. Instead, the $120,000 was actually
loaned to the company by the seller of the property. The OIG conducted this investigation jointly with
the IRS CID.




                                                     11 

                        Small Business Access to Capital



SBA Official, Bank Executive, and Others Conspire to Commit Fraud

Eleven individuals were charged in a 185-count indictment with various Federal crimes for their
involvement in a scheme to defraud a bank and SBA. The charges involve at least 31 fraudulent business
loans, totaling more than $10 million, issued by a Missouri bank. The defendants were charged with
various combinations of false entries in bank records, false statements to a bank, false statements to SBA,
bank bribery, bank fraud, theft by a bank officer, and money laundering. Four of these individuals—a
former executive vice president and chief lending officer of the bank, a former SBA branch manager, and
two Missouri business consultants—were also charged with conspiracy for allegedly making false
statements to the bank and SBA to induce them to approve loans and lines of credit under false pretenses,
making false entries in the bank’s records and structuring loans to avoid scrutiny by the bank’s Board of
Directors, and diverting loan proceeds. Six other individuals have been charged separately in this case,
with two of them having pled guilty. The OIG is conducting this investigation jointly with the FBI.




                                                    12 

                                 Disaster Loan Program 


The Disaster Loan Program plays a vital role in the aftermath of disasters by providing long-term,
low-interest loans to affected homeowners, renters, businesses of all sizes, and non-profit organizations.
There are two types of disaster loans: (1) physical disaster loans for permanent rebuilding and
replacement of uninsured disaster-damaged privately-owned real and/or personal property, and
(2) economic injury disaster loans to provide necessary working capital to small businesses until normal
operations resume after a disaster. The Disaster Loan Program is particularly vulnerable to fraud and
unnecessary losses because loan transactions are expedited in order to provide quick relief to disaster
victims.

As of March 31, 2010, SBA had approved nearly 120,000 disaster loans—totaling almost $6.8 billion—to
assist victims of the Gulf Coast Hurricanes Katrina, Rita, Wilma in 2005, and nearly 24,000 disaster
loans— totaling over $1.2 billion—as a result of Hurricanes Gustav and Ike and flooding in the Midwest
during 2008. The OIG’s audits and reviews continue to focus on loan origination, disbursement,
repayment, servicing, and liquidation activities related to these loans, including whether loan applications
were processed in accordance with SBA procedures; uses of loan proceeds were verified before loans
were fully disbursed; duplicate benefits were appropriately identified and recovered; and loan servicing
and liquidation activities were effectively staffed and managed. The OIG also continues to investigate
allegations of unauthorized use of loan proceeds, overstatement of financial losses, material false
statements in the application process, false/counterfeit supporting documentation, and false assertions
regarding primary residency in affected areas at the times of the disasters.

Monitoring of Insurance Coverage for Disaster Loan Recipients

The National Flood Insurance Act of 1968, combined with the Flood Disaster Protection Act of 1973,
provides that no Federal agency lender may extend a loan secured by real estate that is located in a
Special Hazard Flood Area unless that real estate is covered for the term of the loan by flood insurance.
The amount of coverage must be at least equal to the outstanding balance of the loan, or the maximum
limit of coverage available, whichever is less. The 1973 Act further provides that if a Federal agency
lender determines that a borrower has failed to maintain adequate flood insurance coverage, the agency
must instruct the borrower to obtain the required coverage. If the borrower fails to purchase the required
insurance coverage within 45 days of the notification, the agency must purchase the insurance on behalf
of the borrower and charge the borrower for any associated costs. Although no applicable Federal
requirements regarding hazard insurance exist, SBA’s standard operating procedures provide that
borrowers must maintain hazard insurance coverage in accordance with their Loan Authorization and
Agreements. In contrast to the procedures regarding flood insurance, as a general policy the Agency does
not purchase or maintain hazard insurance on property securing a loan and the Agency’s procedures do
not indicate what actions should be taken when a borrower fails to maintain the required hazard
insurance.

To determine whether SBA’s disaster loan servicing centers adequately monitored required insurance
coverage on properties collateralized by SBA disaster loans, the OIG reviewed a statistical sample of
fully-disbursed disaster loans resulting from the Gulf Coast hurricanes in 2005, Hurricanes Ike and
Gustav in 2008, and the Midwest floods in 2008, that required flood and hazard insurance coverage until
maturity. The OIG found that SBA did not ensure that borrower insurance policies provided adequate
coverage and were continuously reviewed, and the Agency did not comply with statutory requirements to
purchase policies for borrowers who let their flood insurance policies lapse. As a result, $3.8 million in
outstanding loan balances for loans in the sample may not have been adequately protected. Projecting the



                                                    13 

                                Disaster Loan Program 


sample results to the universe of 23,068 fully-disbursed loans from the above disasters, the OIG estimated
that at least 5,341 loans, with approximately $510 million in outstanding loan balances, lacked evidence
of adequate insurance coverage. Similar non-compliance rates could exist for loans associated with other
major disasters.

The OIG recommended that SBA inform borrowers identified by the OIG as having lapsed policies or
insufficient insurance coverage that they must provide evidence of adequate insurance coverage. The
OIG also recommended that SBA determine what actions were needed to achieve compliance with
statutory flood insurance requirements, as well as the cost implications of achieving compliance, and
develop and execute a plan for achieving compliance on existing and future loans. If achieving
compliance is determined not to be cost effective, the Agency should take steps to seek additional funding
or a legislative change to this requirement.

Application of Insurance Offsets for Gulf Coast Disaster Loans

Under the Stafford Act, Federal agencies administering disaster benefits must ensure that individuals
receiving assistance have not already been compensated for their losses from insurance or other sources.
The OIG reviewed a statistical sample of 100 Gulf Coast hurricane loans—totaling nearly $6 million—to
determine whether SBA properly reduced loan balances to reflect flood and hazard insurance offsets. The
OIG found that SBA did not correctly identify or offset insurance payments on 21 of these loans,
resulting in $385,610 of offset errors, primarily duplicate benefits. The majority of the errors occurred
because SBA loan officers did not check with insurance companies prior to each disbursement to
determine the amount of insurance that had been paid, as required. Based on the sample results, the OIG
projected that SBA did not appropriately adjust loan eligibility by at least $80.2 million in insurance
recoveries, of which at least $20.3 million were duplicate benefits, for 119,162 Gulf Coast hurricane loans
disbursed between October 2005 and October 2007. In response to a prior OIG review, SBA agreed to
revise its standard operating procedures to require confirmation of all insurance recovery amounts prior to
loan approval and before each loan disbursement. As a result of this review, the OIG recommended that
the Agency implement procedures to require timely re-verification of insurance recoveries during the
servicing of loans.

Multi-Agency Initiative Fights Gulf Coast Hurricane Fraud

The OIG, along with other law enforcement organizations working with the National Center for Disaster
Fraud (formerly the Hurricane Katrina Fraud Task Force), thus far has produced 63 arrests,
77 indictments, and 69 convictions related to wrongdoing in SBA’s Disaster Loan Program. OIG Gulf
Coast disaster loan investigations have yielded over $3 million in court-ordered restitution and related
recoveries, while assisting the Agency in proactively denying over $2 million in loans to potentially
fraudulent borrowers.

The following examples illustrate OIG cases associated with the Gulf Coast hurricanes.

    •		 After a jury trial, a Louisiana woman was sentenced to 69 months in federal prison, 3 years of
        supervised release, and nearly $157,000 in restitution for theft of government funds, making false
        statements, and wire fraud. She had submitted an application to SBA for a Hurricane Katrina
        disaster loan for property that she falsely claimed to have owned. She also submitted a fraudulent
        quitclaim deed stating that she had acquired the property from the City of New Orleans in



                                                    14 

                                Disaster Loan Program 


        exchange for the back taxes owed on the property. In addition to receiving $75,000 from SBA,
        she received $132,000 from the Louisiana Road Home Program by using the same property
        address and quitclaim deed. The SBA OIG conducted this investigation jointly with the FBI and
        the Department of Housing and Urban Development (HUD) OIG.

    •		 A Louisiana man was charged with theft of government funds. He allegedly filed an application
        for an SBA disaster assistance loan using an address that was not his primary residence when
        Hurricane Katrina struck New Orleans. He also allegedly submitted fraudulent receipts to induce
        SBA to approve the $117,000 loan. Only $50,000 was actually disbursed. The man also received
        $56,000 in Louisiana Road Home Program grant funds by using the same address. The SBA OIG
        is conducting this investigation jointly with HUD OIG.

    •		 A Louisiana man pled guilty to theft of government funds. The investigation disclosed that he
        made false statements and submitted altered and fictitious documents to SBA in order to receive a
        $68,400 disaster home loan and a $70,000 disaster business loan. After the loans were approved,
        he submitted altered and fictitious contracts and invoices for home repairs purporting to show that
        the work had been completed in order to obtain disbursement of the loan funds. He also
        misrepresented that his used car dealership was reopening in order to obtain disbursement of the
        disaster business loan funds. However, the investigation revealed that the State of Louisiana had
        revoked his auto dealership license. The OIG is conducting this investigation jointly with the
        FBI.

    •		 The co-owner of a Louisiana day care business was sentenced to 36 months probation and a fine
        of $1,500 after having pled guilty to wire fraud. She and her husband (who was previously
        sentenced) applied for and received a $94,000 SBA disaster home loan and a $125,500 SBA
        disaster business loan, claiming Hurricane Katrina damage to their residence and her business,
        which was located at the same address. Moreover, she transmitted via facsimile bogus inflated
        receipts to SBA as supporting documentation for repairs completed. Based upon these fraudulent
        receipts, SBA approved additional installment payments from the approved loans and transferred
        more funds into the couple’s checking accounts. Nearly $176,000 in disaster funds were
        recovered as a result of this investigation. The OIG conducted this investigation jointly with the
        National Center for Disaster Fraud.

Falsified Documents Allegedly Used in Disaster Loan Scheme

A Florida man was charged with making a false statement in connection with his application for a
$239,300 SBA disaster loan for his construction company. In the wake of Tropical Storm Fay, he
allegedly misrepresented the status of several pending foreclosures to obtain loan approval and then
provided SBA with altered title reports to hide those foreclosures and other adverse actions. He was able
to obtain an initial $50,000 loan disbursement. The OIG is conducting this investigation jointly with the
FBI.




                                                    15 

 Small Business Development, Contracting, Education and Training



Through its government contracting programs, SBA works to maximize opportunities for small, woman
and minority-owned, and other disadvantaged businesses to obtain Federal contract awards. These
programs include, among others, the Historically Underutilized Business Zone (HUBZone)
Empowerment Contracting Program and the Small Disadvantaged Business (SDB) Certification Program.
SBA also negotiates with other Federal agencies to establish procurement goals for contracting with
small, disadvantaged, women-owned, service-disabled veteran-owned, and HUBZone businesses. The
current government-wide goal is for small businesses to receive 23 percent of the total value of prime
contracts awarded each fiscal year.

To help small disadvantaged businesses gain access to Federal and private procurement markets, SBA’s
Section 8(a) Business Development Program offers a broad range of business development support, such
as mentoring, procurement assistance, business counseling, training, financial assistance, surety bonding,
and other management and technical assistance. SBA also provides assistance to existing and prospective
small businesses through a variety of counseling and training services offered by partner organizations.
Among these are Small Business Development Centers (SBDCs), the Service Corps of Retired
Executives (SCORE), and Women’s Business Centers (WBCs). Most of these are grant programs that
require effective and efficient management, outreach, and service delivery.

Unconditional Ownership Requirements for Indian Tribes

During a review of a tribally-owned 8(a) firm, the OIG found that SBA’s business development
regulations do not clearly implement the Small Business Act’s statutory requirement that the ownership
of firms by Indian tribes be unconditional. In addition, SBA’s regulatory definition of unconditional
ownership appears to be inconsistent with restrictions discussed in the legislative history of the Act.

The Small Business Act requires that small business concerns be at least 51 percent unconditionally
owned or controlled by a socially or economically disadvantaged individual or Indian tribe. The purpose
of unconditional ownership is to ensure that disadvantaged owners are the primary beneficiaries of the
8(a) program. Under SBA’s regulations, however, Indian tribes are not clearly subject to the
unconditional ownership requirement.

The tribally-owned 8(a) firm reviewed by the OIG was started with self-valued goodwill representing the
value of the expertise and contacts of a non-disadvantaged individual (NDI). The NDI contributed
49 percent of the goodwill to the 8(a) firm. The remaining goodwill was sold to the Indian tribe to be
contributed to the formation of the 8(a) firm, and the tribe agreed to pay for the goodwill from its share of
future profits from the firm. Although the NDI’s company and the tribe agreed that the tribe would own
51 percent of the 8(a) firm, this seller-financed transaction effectively reduced the tribe’s share of profits
to 25 percent, while the NDI’s company received 75 percent.

The OIG recommended that SBA revise its regulations to mandate that tribally-owned firms be
unconditionally owned, as required by the Small Business Act. The OIG also recommended that SBA
study the effect of allowing seller-financed transactions to encumber ownership shares and, if appropriate,
revise its regulations to provide that stock or other ownership interest pledged or encumbered not qualify
as unconditional ownership unless the pledge or encumbrance occurs as part of an arms-length transaction
with a legitimate financial institution.




                                                     16 

 Small Business Development, Contracting, Education and Training



SBA’s Accounting of Fiscal Year 2009 Drug Control Funds and Performance Summary Report

Agencies are required by the Office of National Drug Control Policy (ONDCP) Circular, Drug Control
Accounting, to annually provide a detailed accounting of all funds expended on National Drug Control
Program activities and the results associated with those activities. However, when drug-related
obligations are less than $50 million and a detailed accounting would constitute an unreasonable burden,
agencies are permitted to submit an alternative report, as long as it is accompanied by agency and OIG
statements that full compliance with the circular would constitute an unreasonable burden. Because
SBA’s Fiscal Year 2009 drug-related obligations were less than $50 million, it submitted an alternative
report for the year ended September 30, 2009. An OIG’s review of the alternative report found nothing to
indicate that it was not presented, in all material respects, in conformity with the ONDCP Circular, or that
management’s assertions were not fairly stated, in all material respects, based on the criteria set forth in
the ONDCP Circular.

Official Sentenced for Crimes Related to Former 8(a) Firm Bid Manipulation

A former West Virginia Department of Administration (WVDA) occupational health and safety
coordinator was sentenced to 12 months and one day incarceration, 6 months home confinement, 3 years
supervised release, and a $3,000 fine. He admitted that he caused a check to be mailed from the WVDA
to a Maryland environmental and demolition services company (a former SBA 8(a) firm) as payment for
lead abatement work on a West Virginia state contract with the intent of accepting a gratuity in violation
of the West Virginia Bribery and Corrupt Practices Act. He also provided the company with confidential
bid information, which enabled it to be the lowest bidder on contracts, and then awarded contracts to the
company in return for money and other things of value. SBA OIG conducted this investigation jointly
with the Environment Protection Agency CID, Naval Criminal Investigative Service, IRS CID, and the
FBI.

Legislation Requires Approval of SBDC Surveys

In December 2004, Congress amended section 21(a)(7) of the Small Business Act to restrict the
disclosure of information regarding individuals or small businesses that have received assistance from an
SBDC, and further restricts the Agency’s use of such information. The provision also requires the
Agency to issue regulations regarding disclosures of such information for use in conducting financial
audits or SBDC client surveys. To date, however, SBA has not issued these regulations. In addition,
paragraph 21(a)(7)(C)(iii) states that, until the issuance of such regulations, any client survey and the use
of such information shall be approved by the Inspector General, who shall include such approval in the
OIG’s Semiannual Report to Congress. In 2009, the Agency identified that it was conducting surveys of
small businesses that had received assistance from SBDCs. The OIG advised that it had no objection to
these surveys based upon the Agency’s ability to demonstrate that it was taking steps to ensure that
acquisition and use of information derived from these surveys met the requirements of section 21(a)(7).
The Agency has also represented that it would issue regulations in the near future as required by the
statute.




                                                     17 

                                   Agency Management



SBA’s Efforts to Improve the Quality of Acquisition Data in the Federal Procurement Data System

In 2007, the Office of Management and Budget (OMB) issued a directive requiring Federal agencies to
annually certify to the accuracy of the procurement data reports in the Federal Procurement Data System
(FPDS). Data in FPDS must be accurate because it is used to report on Government contracting actions,
procurement trends, achievement of small business goals, and to report contract activity under the
Recovery Act. In 2008, OMB also required that agencies annually implement data quality plans.

The OIG found that SBA certified to the accuracy of its Fiscal Year 2008 contracting data even though
92 percent of a random sample of contract actions reviewed by the OIG contained one or more inaccurate
or incomplete data elements in FPDS. Of 648 individual FPDS data elements reviewed, 156
(24.1 percent) did not agree with the contract file or the information was missing from the contract file.
While SBA had developed a data quality plan for Fiscal Year 2008, it did not fully implement the plan,
which contributed to the errors identified by the OIG. Further, due to the volume of errors identified in
FPDS, it appears that contracting personnel did not review FPDS data inputs to ensure they reflected
accurate information, as required by the Federal Acquisition Regulation (FAR). While the accuracy of
some data elements improved in Fiscal Year 2009—of 630 individual FPDS data elements reviewed,
141 (22.4 percent) did not agree with the contract file or the information was missing from the contract
file—overall there was a higher rate of error in the Fiscal Year 2009 data. Approximately 97 percent of
the contract actions in an OIG sample contained one or more inaccurate or incomplete data elements,
indicating again that SBA contracting personnel were not properly reviewing data entries.

The OIG recommended that SBA either update its Fiscal Year 2008 data quality plan or revise applicable
procedures to include explicit steps to be taken to ensure data is reviewed for accuracy and completeness;
conduct an independent review to ensure that the data quality plan or procedural requirements have been
fully implemented; and ensure that contracting personnel are held accountable for the accuracy of FPDS
data. In response to the OIG’s recommendations, the Agency stated that it would revise the data quality
plan to further delineate specific steps that must be taken to ensure data is properly reviewed for accuracy
and completeness, and would provide training to contracting specialists/officers to reinforce this effort. In
addition, the Agency awarded a contract to conduct an independent review of the FPDS data.

Audit of SBA’s Fiscal Year 2009 Financial Statements

Pursuant to the Chief Financial Officer’s Act of 1990, the audit of SBA’s Fiscal Year 2009 financial
statements was performed by KPMG LLP under a contract with the OIG. The scope of the audit was
expanded to include testing of certain transactions and system enhancements related to SBA’s
implementation of the Recovery Act. The audit found that SBA’s consolidated financial statements
presented fairly, in all material respects, the financial position of the Agency as of and for the years
ending September 30, 2009 and 2008. The financial statements also presented fairly, in all material
respects, SBA’s net costs, changes in net position, budgetary resources, and combined statements of
budgetary resources for the years then ended. With respect to internal control over financial reporting, the
independent auditors reported a material weakness over financial reporting, and continued to report a
significant deficiency related to information technology security controls. KPMG’s test for compliance
with certain laws, regulations, contracts, and grant agreements determined that SBA did not fully comply
with the Debt Collection Improvement Act of 1996 because the Agency did not consistently follow
Treasury guidelines for referring delinquent debts for collection.




                                                     18 

                                  Agency Management



SBA’s Readiness to Review Recipient Reports on the Use of Recovery Act Funds

Section 1512 of the Recovery Act requires recipients of assistance under the statute to provide certain
reports. Guidance issued by OMB requires Federal agencies to perform limited data quality reviews of
recipient reports and notify the recipients of two key data problems – material omissions and significant
reporting errors. For SBA, OMB has determined that Section 1512 reporting requirements apply only to
the Agency’s contract awards, the Microloan Program, and the 7(a) Broker/Dealer Direct Loan Program
(which, at the time of the OIG review, SBA had not yet implemented). As of September 30, 2009, SBA
had issued 15 Recovery Act-related contracts totaling $5.8 million and had obligated $15 million in
Recovery Act funds for the Microloan Program.

An OIG review of SBA’s plans for ensuring that recipients of Recovery Act funds submit accurate,
complete, and timely data on the use of the funds found that the Agency had established processes for
performing data quality reviews for contract and Microloan recipient data and for notifying recipients of
the need to make appropriate and timely changes. However, the Agency had not adequately defined the
review process it would use to identify material omissions and/or significant reporting errors in contract
recipient data, and had not yet drafted a policy for reviewing Microloan recipient data. The OIG
recommended that SBA issue detailed procedures for performing data quality reviews over contract
recipient reports and define its process for reviewing Microloan intermediary reports.

Agency Management Decisions

The Inspector General Act requires Federal agencies to make decisions on all audit findings and
recommendations within 6 months of report issuance. Agency officials may agree, disagree, or propose
alternative actions to the recommendations. The Agency’s response becomes a management decision
when the OIG agrees that the proposed action(s) will implement the audit recommendation. During this
reporting period, management decisions were made for 83—or 89 percent—of the 93 recommendations
that were issued. At the end of the semi-annual reporting period, SBA had not made decisions on
2 recommendations that were made in prior reporting periods.

During this reporting period, the OIG received revised management decisions for two recommendations.

    •		 Audit Report 9-10, SBA’s Fiscal Year 2007 Improper Payment Rate for the Disaster Loan
        Program. The OIG recommended that SBA report to OMB the improper payment rate calculated
        by the OIG for Fiscal Year 2007. The Agency concurred with the recommendation when the
        report was issued; however, since that time, the Chief Financial Officer has decided not to take
        the action outlined in the management decision.

    •		 Audit Report 9-15, Participation in the 8(a) Program by Firms Owned by Alaska Native
        Corporations. SBA agreed to conduct a program review to evaluate whether the growth in Alaska
        Native Corporation (ANC) 8(a) obligations has adversely impacted, or will adversely impact,
        other 8(a) firms and the overall effectiveness of the 8(a) program. While the Agency conducted a
        review, it was not sufficiently thorough to address the intent of the recommendation. The review
        focused only on dollar increases in awards to 8(a) participant groups and small businesses, and
        did not address whether ANCs were getting a disproportionate share of 8(a) contracts and the
        impact this was having on other 8(a) firms as a whole and by industry group.




                                                   19 

                                  Agency Management



SBA Gift Authority

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General, who shall report his findings to Congress. According to
the information provided by SBA’s Office of Strategic Alliances, SBA did not accept any cash gifts
during this semiannual reporting period.

Cosponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act, as amended, requires the OIG to report to Congress on a semi-
annual basis regarding the Agency’s use of its authority in connection with cosponsorships and fee-based
Administration-sponsored events. SBA’s Office of Strategic Alliances provided information to the OIG
related to cosponsorships, including the names, dates, and locations of the cosponsored events and the
names of the cosponsors. This information was not verified by the OIG. As shown in Appendix IX,
between October 1, 2009 and March 31, 2010, there were 83 cosponsored events.




                                                   20 

                        Other Significant OIG Activities 


Character Screening Lessens Potential Program Fraud

Participants in SBA programs involving business loans, disaster assistance loans, Section 8(a)
certifications, surety bond guarantees, SBICs, and Certified Development Companies must meet Agency
character standards. To help ensure that this occurs, the OIG’s Office of Security Operations utilizes
name checks and, where appropriate, fingerprint checks to determine criminal background information.
During this reporting period, the OIG processed 1,933 external name check requests for these programs.

The OIG also refers applicants who appear ineligible because of character issues to program officials for
adjudication. The referrals are based on data from the OIG’s on-line connection with the FBI. As a result
of OIG referrals during this reporting period, SBA business loan program managers declined 39
applications totaling over $12.5 million, and disaster loan program officials declined 12 applications
totaling nearly $1.4 million. In addition, the Section 8(a) program declined 11 applications for admission.

During this reporting period, the OIG also initiated 186 background investigations and issued 12 security
clearances for Agency employees and contractors. The OIG also adjudicated 165 background
investigative reports and coordinated with SBA’s Office of Disaster Assistance (ODA) to adjudicate
85 derogatory background investigation reports. Finally, the OIG processed 1,712 internal name check
requests for Agency activities such as success stories, “Small Business Person of the Year” nominees, and
disaster assistance new hires.

OIG Promotes Debarment and Administrative Enforcement Actions

The OIG continues to promote debarment as a means to protect Federal agencies from program
participants that have engaged in fraud or otherwise exhibited a lack of business integrity. The OIG
regularly identifies candidates for debarment and submits detailed recommendations with supporting
documents to SBA debarment officials.

During this reporting period, SBA issued 19 proposed debarments based upon OIG recommendations,
and continues to consider 20 others for possible debarment. Among these, the OIG recommended, and
SBA issued, five proposed debarments based upon improper conduct in SBA’s HUBZone programs. The
facts underlying those proposed debarments were discovered as a result of a GAO audit and joint OIG
and Department of Justice investigation. The OIG also recommended debarment of an individual and
company the OIG believes took advantage of the Service-Disabled Veteran-Owned Small Business
Program, as well as an individual who made false statements in order to obtain waivers necessary to
participate in the 8(a) Business Development Program.                Additionally, in response to OIG
recommendations, SBA issued several proposed debarments based upon fraudulent conduct in SBA loan
programs, such as asset overvaluation, falsified equity injections, and improper use of funds. Finally, the
OIG has recommended debarment of an SBIC manager who falsified documents to disguise the fact that
SBIC funds had been converted for personal use. Debarment statistics for the reporting period are in the
Statistical Highlights section later in this report.

Additionally, the OIG working with SBA so the Agency can develop a more robust debarment and
suspension program. The OIG believes the Agency needs to be more aggressive in pursuing debarments
and other enforcement activity against companies that wrongfully obtain preferential contracting benefits.
In addition to its work on suspension and debarment issues, the OIG has continued working with SBA to
develop a comprehensive set of procedures for administrative enforcement actions against loan agents and



                                                    21 

                        Other Significant OIG Activities 


packagers who commit fraud or other wrongdoing. These procedures would effectively implement
SBA’s regulations at 13 C.F.R. Part 103, which authorize the Agency to suspend or revoke a loan agent’s
privilege to conduct business with SBA. SBA has prepared draft internal guidance based upon the OIG
recommendations and is continuing to work with OIG on refinements to those procedures.

OIG Reviews of Proposed Agency Regulations and Initiatives Lead to Improved Program Controls
to Reduce Fraud, Waste, Abuse and Inefficiencies

As part of the OIG’s proactive efforts to promote accountability and integrity and reduce inefficiencies in
SBA programs and operations, the OIG reviews Agency-proposed changes to program management
directives such as regulations and internal operating procedures, forms that SBA asks program applicants
and other members of the public to complete, and proposed agency reorganizations. Frequently, the OIG
identifies material weaknesses in these initiatives and recommends revisions to the Agency to promote
more effective controls. During this reporting period, the OIG reviewed 35 proposed revisions of
program management or Agency reorganization documents and provided comments on 15 of these
initiatives.

The OIG provided comments on a wide variety of SBA initiatives and, through Agency adoption of OIG
recommendations, prompted more robust controls in and enhancements to these documents. For example,
the Agency agreed to make changes to its regulations governing the women-owned small business
contracting program to reduce the potential for fraud and to promote accountability in the program. The
OIG also reviewed and commented on material weaknesses on regulations pertaining to the 8(a) Business
Development program, for which the Agency has historically experienced weaknesses in its oversight
capabilities. Additional recommendations were made to improve internal operating procedures for an
SBA business loan program and various forms used in financial assistance programs.

Fraud Awareness Briefings

During this reporting period, the OIG conducted 4 fraud awareness presentations for approximately
115 representatives of lending institutions, government agencies, and law enforcement organizations.
Topics included fraud associated with government contracting as well as with other SBA programs.




                                                    22 

                                                   Statistical Highlights




                                         6-Month Productivity Statistics 

                                     October 1, 2009 through March 31, 2010 


Summary of Office-Wide Dollar Accomplishments		                                                                                                  Totals

A. 	 Potential Investigative Recoveries and Fines ..................................................................... $18,037,642* 

B. 	 Loans/Contracts Not Approved or Canceled as Result of Investigations.................................. $553,800 

C. 	 Loans Not Made as a Result of Name Checks ..................................................................... $13,943,422 

D. 	 Disallowed Costs Agreed to by Management ........................................................................ $1,060,470


E. 	 Recommendations that Funds Be Put to Better
     Use Agreed to by Management ........................................................................................................... $0

      Total ................................................................................................................................... $33,595,334*



Efficiency and Effectiveness Activities Related to Audit and Other Reports

A.		 Reports Issued ...................................................................................................................................... 22 

B.		 Recommendations Issued ..................................................................................................................... 93 

C. 	 Dollar Value of Costs Questioned ............................................................................................. $314,363


D. 	 Dollar Value of Recommendations that Funds
     Be Put to Better Use ............................................................................................................................ $0
E. 	 Collections as a Result of Questioned Costs ............................................................................. $269,882 


Audit and Report Follow-up Activities

A. 	 Recommendations for which Management Decisions were made
     During the Reporting Period ................................................................................................................ 90
B. 	 Disallowed Costs Agreed to by Management ........................................................................ $1,060,470


C. 	 Dollar Value of Recommendations that Funds Be Put to Better Use
     Agreed to by Management ................................................................................................................... $0
D. 	 Recommendations without a Management Decision at End of Reporting Period ............................... 12 


Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. 	 Legislation, Regulations, Standard Operating Procedures, and Other Issuances ** Reviewed ........... 35 


* 	 May include actions from earlier reporting periods.
** 	This category includes policy notices, procedural notices, Administrator’s action memoranda, and other
    Agency initiatives, which frequently involve the implementation of new programs and policies.




                                                                            23 

                                                       Statistical Highlights



                                            6-Month Productivity Statistics 

                                        October 1, 2009 through March 31, 2010 


Indictments, Convictions, and Case Activity

A. 	 Indictments from OIG Cases .............................................................................................................. 53* 

B. 	 Convictions from OIG Cases................................................................................................................ 14 

C.		 Cases Opened ....................................................................................................................................... 35 

D.		 Cases Closed......................................................................................................................................... 39 


Recoveries and Management Avoidances as a Result of Investigations and Related Activities

A Potential Recoveries and Fines as a Result of
     OIG Investigations ............................................................................................................ $18,037,642*
B. 	 Loans/Contracts Not Approved or Canceled as Result of Investigations.................................. $553,800 

C. 	 Loans Not Approved as a Result of the Name
     Check Program .................................................................................................................... $13,943,422

       Total ................................................................................................................................... $32,534,864*



SBA Personnel Actions Taken as a Result of Investigations

A      D
       	 ismissals............................................................................................................................................... 0 

B.		   Resignations/Retirements ....................................................................................................................... 0 

C.		   Suspensions ............................................................................................................................................ 0 

D.		   Reprimands ............................................................................................................................................. 0 

E.		   Other ....................................................................................................................................................... 0 


Debarment and Suspension Actions

A.		 Debarments Recommended to the Agency .......................................................................................... 19 

B. 	 Debarments Pending at the Agency ..................................................................................................... 20 

C. 	 Proposed Debarments Issued by the Agency ....................................................................................... 16 

D. 	 Final Debarments Issued by the Agency ................................................................................................ 3 

E. 	 Proposed Debarments Declined by the Agency ..................................................................................... 3 

F. 	 Suspension/Debarment Actions by Other Agencies
     Resulting from Investigations in which the OIG Participated .............................................................. 31

OIG Hotline Operation Activities

A. 	 Total Fraud Line Complaints.............................................................................................................. 247 

B. 	 Total Complaints Referred to Investigations Division ....................................................................... 132


C. 	 Total Complaints Referred to SBA or Other Federal Investigative Agencies........................................ 1 

D. 	 Total Complaints Referred to Other Entities .......................................................................................... 1 

E. 	 Total Complaints Needing No Action ................................................................................................ 113 


* 	 May include actions from earlier reporting periods.

                                                                                 24 

                                            Appendices



                                               Appendix I 

                                           OIG Reports Issued 

                                 October 1, 2009 through March 31, 2010



                                             Report        Issue          Questioned        Funds for
                  Title
                                             Number        Date             Costs           Better Use
                                               Recovery Act
SBA Readiness for Reviewing Recipient
Reports on the Use of Recovery Act          ROM 10-01        10/30/2009                $0            $0
Funds
Review of Recovery Act’s Impact on
                                            ROM 10-02        11/25/2009                $0            $0
SBA Lending
Recovery Act Loans Involving Change of
                                            ROM 10-03        12/2/2009                 $0            $0
Ownership Transactions
Review of Controls over Job Creation and
Retention Statistics Reports by SBA
                                            ROM 10-04        12/4/2009                 $0            $0
Under the American Recovery and
Reinvestment Act of 2009
Notice of Finding and Recommendation
on Recovery Act Loans Disbursed
                                            ROM 10-05        12/10/2009                $0            $0
Without the Required Borrower
Immigration Certifications
Inadequate Documentation to Support a
Loan Approved Under Section 504 of the      ROM 10-06        12/15/2009                $0            $0
Recovery Act
Enhancements Needed in Processing
                                            ROM 10-07        12/15/2009                $0            $0
Payroll Funded Under the Recovery Act
Lack of Controls to Ensure Recovery Act
                                            ROM 10-08        12/15/2009                $0            $0
Payroll is Complete and Accurate
Lack of Approval for a Recovery Act
                                            ROM 10-09        12/15/2009                $0            $0
Surety Bid Bond Guarantee
SBA’s Administration of the Microloan
                                            ROM 10-10        12/28/2009                $0            $0
Program under the Recovery Act
Notice of Finding and Recommendation
on Ineligible Lender-Approved Recovery      ROM 10-11        1/22/2010                 $0            $0
Act Loans
Notice of Finding and Recommendation
on Material Origination and Closing
                                            ROM 10-12        3/31/2010                 $0            $0
Deficiencies Identified in SBA and
Lender-Approved Recovery Act Loans
            Program Subtotal                    12                                     $0            $0
                                      Small Business Access to Capital
Audit of Premier Certified Lenders in the
                                              10-10          3/23/2010                 $0            $0
Section 504 Loan Program
             Program Subtotal                   1                                      $0            $0




                                                      25 

                                          Appendices



                                              Appendix I 

                                          OIG Reports Issued 

                                October 1, 2009 through March 31, 2010



                                           Report        Issue          Questioned        Funds for
                 Title
                                           Number        Date             Costs           Better Use
                                            Disaster Loans
Monitoring of Insurance Coverage for
                                            10-01          10/20/2009                $0            $0
Disaster Loan Recipients
Review of Borrower Eligibility for Gulf
                                            10-03          10/21/2009        $314,363              $0
Coast Disaster Loans
             Program Subtotal                 2                              $314,363              $0
                 Small Business Development, Contracting, Education, and Training
SBA Regulations Relating to
Unconditional Ownership Requirements        10-07          1/25/2010                 $0            $0
for Indian Tribes
Review of SBA’s Accounting of Fiscal
Year 2009 Drug Control Funds and            10-09          2/26/2010                 $0            $0
Performance Summary Report
              Program Subtotal                2                                      $0            $0
                                          Agency Management
Fiscal Year 2010 Report on the Most
Serious Management and Performance
                                            10-02          10/16/2009                $0            $0
Challenges Facing the Small Business
Administration
Audit of SBA’s Fiscal Year 2009
                                            10-04          11/13/2009                $0            $0
Financial Statements
GFRS for Fiscal Year 2009                   10-05          11/13/2009                $0            $0
Audit of SBA’s Fiscal Year 2009
                                                                                     $0            $0
Financial Statements – Management           10-06          12/15/2009
Letter
SBA’s Efforts to Improve the Quality of
Acquisition Data in the Federal             10-08          2/26/2010                 $0            $0
Procurement Data System
           Program Subtotal                   5                                    $0              $0
        TOTALS (all programs)                22                              $314,363              $0




                                                    26 

                                                 Appendices



                                                Appendix II
                                      OIG Reports with Questioned Costs

                                                                Recommend-             Questioned        Unsupported
                                                  Reports
                                                                  ations*               Costs**            Costs**
      No management decision made
A.                                                     2                2                  $339,643          $1,250,088
      by September 30, 2009
      Issued during this reporting                     1                1                         $0           $314,363
B.
      period
      Universe from which
      management decisions could be
                                                       3                3                  $339,643          $1,564,451
      made in this reporting period –
      Subtotals
      Management decision(s) made
C.                                                     3                3                  $339,643          $1,564,451
      during this reporting period
      (i) Disallowed costs                             2                2                        $0          $1,060,470
      (ii) Costs not disallowed                        3                3                  $339,643            $503,981
      No management decision made
D.                                                     0                0                         $0                $0
      by March 31, 2010
*		 Reports may have more than one recommendation.
** Q	 uestioned costs are those which are found to be improper, whereas unsupported costs may be proper, but lack
    documentation.




                                        Appendix III 

                OIG Reports with Recommendations that Funds Be Put to Better Use

                                                                                                   Recommended
                                                                            Recommend-
                                                             Reports                              Funds For Better
                                                                              ations*
                                                                                                        Use
      No management decision made by
A.                                                                0                0                                 $0
      September 30, 2009
B.    Issued during this reporting period                         0                0                                 $0
      Universe from which management decisions
      could be made in this reporting period –                    0                0                                 $0
      Subtotals
      Management decision(s) made during this
C.                                                                0                0                                 $0
      reporting period
      (i) Recommendations agreed to by SBA
                                                                  0                0                                 $0
           management
      (ii) Recommendations not agreed to by SBA
                                                                  0                0                                 $0
           management
      No management decision made by March
D.                                                                0                0                                 $0
      31, 2010
*  Reports may have more than one recommendation.


** Information is different from what was previously reported due to database corrections. 





                                                           27 

                                                 Appendices



                                             Appendix IV
                           OIG Reports with Non-Monetary Recommendations

                                                                                     Reports       Recommendations
A.    No management decision made by September 30, 2009                                  4                    7
B.    Issued during this reporting period                                                22                  92
      Universe from which management decisions could be made in this
                                                                                         26                  99
      reporting period – Subtotals
      Management decision(s) made (for at least one recommendation in
C.                                                                                       22                  87
      the report) during this reporting period

D.    No management decision made by March 31, 2010*                                     5                   12


*  Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may have
   recommendations that fall under both C. & D.
** Information is different from what was previously reported due to database corrections.




                                           Appendix V 

                            OIG Reports From Prior Semiannual Periods
                      with Overdue* Management Decisions as of March 31, 2010

                                                Report         Date
                   Title                                                                       Status
                                                Number        Issued
SBA’s Fiscal Year 2008 Improper
                                                                             The Agency has not responded to two
Payment Rate for the 7(a) Guaranty Loan            9-16      7/10/2009
                                                                             recommendations in the report.
Program

*    “Overdue” is defined as more than 180 days from the date of issuance.




                                                           28 

                                               Appendices



                                            Appendix VI 

                         OIG Reports Without Final Action as of March 31, 2010

                                                                                                 Final
                                                                                      Date of
Report                                                                    Date                   Action
                                      Title                                         Management
Number                                                                   Issued                  Target
                                                                                     Decision
                                                                                                  Date
 0-14         7(a) Service Fee Collections                               3/30/00      8/22/00    3/31/09
              SBA’s Oversight of the Fiscal Transfer Agent for
 3-08                                                                    1/30/03      4/15/07    3/31/10
              the 7(a) Loan Program
 3-26         Microloan Program                                          5/12/03         *       12/31/07
              Audit of SBA's Process for Complying with the
 4-34         Federal Managers' Financial Integrity Act                  7/29/04       9/9/04    3/31/09
              Reporting Requirements
              Fiscal Year 2005 Financial Statements -
 6-10                                                                    1/18/06       3/3/06    3/31/10
              Management Letter
              Audit of SBA's Fiscal Year 2006 Financial
 7-03                                                                    11/15/06     12/20/06   10/30/09
              Statements
              SBA’s Use of the Loan and Lender Monitoring
 7-21                                                                    5/2/2007      9/5/08    12/31/09
              System
 7-28         SBA's Oversight Of Business Loan Center, LLC                7/11/07     9/27/07    12/31/09
 7-29         Quality Assurance Reviews of Loss Verification             07/23/07     8/30/08    9/30/10
              Audit of SBA's Fiscal Year 2007 Financial
 8-06                                                                    12/14/07        *       6/30/10
              Statements - Management Letter
              Loan Classification and Overpayments of
 8-09                                                                    3/26/08         *         **
              Secondary Loans
 8-12         Oversight of SBA Supervised Lenders                         5/9/08         *         **
              Planning for the Loan Management and
 8-13         Accounting System Modernization and                        5/14/08         *         **
              Development Effort
              Acceptance of VBP Group into the 8(a) Program
 8-16                                                                    7/18/08      8/11/08    8/30/09
              and Subsequent Contract Award by SBA
              Audit of SBA’s Fiscal Year 2008 Financial
 9-03                                                                    11/14/08        *         **
              Statements
              Audit of SBA’s Fiscal Year 2008 Financial
 9-05                                                                    12/17/08        *       6/30/10
              Statements – Management Letter
              Improper Payment Rate for the Disaster Loan
 9-10                                                                    3/26/09      5/20/09    11/30/09
              Program
              Review of SBA National Guaranty Purchase
 9-12                                                                    3/31/09      3/31/09    10/15/09
              Center Furniture Contract
              Office of Business Operations Contracting
 9-14                                                                     7/6/09      6/15/09     8/1/10
              Personnel Qualifications and Warrant Authority
*       Management decision dates vary with different recommendations.
**      Target dates vary with different recommendations.




                                                         29 

                                               Appendices



                                            Appendix VI 

                         OIG Reports Without Final Action as of March 31, 2010

                                                                                                 Final
                                                                                      Date of
Report                                                                    Date                   Action
                                      Title                                         Management
Number                                                                   Issued                  Target
                                                                                     Decision
                                                                                                  Date
              Participation in the 8(A) Program by Firms Owned
 9-15                                                                    7/10/09      8/02/09      **
              by Alaska Native Corporations
              SBA’s Fiscal Year 2008 Improper Payment Rate
 9-16                                                                    7/10/09         *         **
              for the 7(A) Guaranty Loan Program
              Review of Allegations Concerning How the Loan
 9-17         Management and Accounting System                           7/30/09         *         **
              Modernization Project is Being Managed
              SBA’s Management of the Backlog of Post-
 9-18         Purchase Reviews at the National Guaranty                  8/25/09         *         **
              Purchase Center
              Monitoring of Insurance Coverage for Disaster
 10-01                                                                   10/20/09     11/6/09      **
              Loan Recipients
              Application of Insurance Offsets for Gulf Coast
 10-03                                                                   10/21/09     1/20/10    3/31/10
              Disaster Loans
              Audit of SBA's Fiscal Year 2009 Financial
 10-04                                                                   11/13/09        *         **
              Statements
              Audit of SBA's Fiscal Year 2009 Financial
 10-06                                                                   12/15/09        *         **
              Statements - Management Letter
              SBA Regulations Relating to Unconditional
 10-07                                                                   1/25/10      3/12/10    10/31/10
              Ownership Requirements for Indian Tribes
              SBA’s Efforts to Improve the Quality of
 10-08        Acquisition Data in the Federal Procurement Data           2/26/10      3/29/10      **
              System
 ROM          Recovery Act Loans Involving Change of
                                                                         12/2/09      11/24/09   3/31/10
 10-03        Ownership Transactions
              Review of Controls Over Job Creation and
 ROM
              Retention Statistics Reports by SBA Under the              12/4/09         *         **
 10-04
              American Recovery and Reinvestment Act of 2009
 ROM          Recovery Act Loans Disbursed Without Required
                                                                         12/10/09     1/19/10    5/31/10
 10-05        Borrower Immigration Certifications
 ROM          SBA’s Administration of the Microloan Program
                                                                         12/28/09        *         **
 10-10        Under the Recovery Act
 ROM          NFR on Ineligible Lender-Approved Recovery Act
                                                                         1/22/10      1/26/10    5/31/10
 10-11        Loans

*       Management decision dates vary with different recommendations.
**      Target dates vary with different recommendations.




                                                         30 

                                                  Appendices



                                                Appendix VII 

                                  Summary of Significant Recommendations
                                  From Prior Semiannual Reporting Periods
                                  Without Final Action as of March 31, 2010*

                                                                                      Date of
Report           Date                                                                            Final Action
                                             Recommendation                         Management
Number          Issued                                                                           Target Date
                                                                                     Decision
                             Revise current procedures for classifying loans
                             in the Loan Accounting System to ensure that
    8-09        3/23/08                                                                9/3/08      9/30/09
                             loan currency is not solely based on the next
                             installment due date.
                             Discontinue the practice of including the amount
    8-09        3/23/08      of SBA’s ongoing guaranty fees in the purchase            9/3/08      9/30/09
                             payment to the Fiscal and Transfer Agent.
                             Make cost-effective remediation of mainframe
                             vulnerabilities a priority and ensure that
                             migration of LAS occurs before the current
    8-13        5/14/08                                                               8/27/08      3/31/09
                             mainframe contract expires in 2012 to reduce
                             SBA's mainframe costs and timely mitigate
                             associated security risks.
                             Report the improper rate calculated by the OIG
    9-10        3/26/09                                                               5/20/09      11/30/09
                             for Fiscal Year 2007 to OMB.
                             Ensure the correct Fiscal Year 2008 improper
    9-10        3/26/09                                                               5/20/09      11/30/09
                             payment estimate is reported to OMB.
                             Establish internal controls that ensure that OBO
                             and DPGM are unable to modify contracts
    9-12        3/31/09                                                               3/31/09      10/15/09
                             without the appropriate supporting
                             documentation, including a statement of work.
                             Update official designation of the Acquisition
                             Career Manager and seek administrative rights
    9-14         7/6/09                                                               6/15/09       8/1/10
                             to ACMIS for the position from the Federal
                             Acquisition Institute.
                             Conduct a program review to evaluate whether
                             the growth in ANC 8(a) obligations has
                             adversely impacted, or will adversely impact,
    9-15        7/10/09                                                               8/4/09        9/4/09
                             other 8(a) firms and the overall effectiveness of
                             the 8(a) program and, if so, make programmatic
                             revisions to minimize the adverse impact.
                             Determine whether 8(a) firms owned by ANCs
                             and tribes should continue to be exempt from the
    9-15        7/10/09      cap on total sole source awards in CFR 124.519           8/2/09       10/31/10
                             and, if not; remove the exemption from this
                             regulation.
                             Seek recovery of $2.3 million from lenders on
    9-16        7/10/09      the loans listed in Appendices III and IV of the         8/27/09      10/31/09
                             report.

*     These are a subset of the universe of recommendations without final action.




                                                             31 

                                                  Appendices



                                                 Appendix VII 

                                  Summary of Significant Recommendations
                                  From Prior Semiannual Reporting Periods
                                  Without Final Action as of March 31, 2010*

                                                                                       Date of
Report          Date                                                                              Final Action
                                             Recommendation                          Management
Number         Issued                                                                             Target Date
                                                                                      Decision
                            Fully implement the corrective action plan
                            reported in SBA’s Fiscal Year 2008 Performance
    9-16       7/10/09                                                                 7/28/09      9/30/10
                            and Accountability Report to reduce improper
                            payments in the 7(a) Guaranty Loan Programs.
                            Report the revised improper payment rate
    9-16       7/10/09      calculated by the OIG for Fiscal Year 2008 to              9/26/09      11/15/09
                            OMB.
                            Take steps to modify the contract to require the
                            Quality Assurance/Independent Verification and
                            Validation (QA/IV&V) contractor to report all
    9-17       7/30/09      findings and recommendations to the Program                8/28/09      9/30/09
                            Manager and an independent Quality Assurance
                            manager designated by the Chief Information
                            Officer (CIO).
                            Establish a process for reviewing and accepting
    9-17       7/30/09      LMAS deliverables that complies with Systems               8/28/09      9/30/09
                            Development Methodology (SDM) requirements.
                            Immediately establish an enterprise-wide QA
    9-17       7/30/09      function that is compliant with SBA’s SDM QA               9/3/09       10/30/09
                            policy.
                            Take steps to ensure that a well-defined
                            deliverable acceptance process is established for
    9-17       7/30/09                                                                 9/3/09       12/31/09
                            the LMAS project in accordance with SBA’s
                            Enterprise Quality Assurance Plan.
                            Seek recovery of $1,250,088 on the guaranties
    9-18       8/25/09      paid on the 6 loans listed in Appendix IV of the          10/21/09      12/31/09
                            report.
                            Include detailed scopes of work, measurable
                            performance metrics, deliverables, and adequate
    9-18       8/25/09      acceptance criteria in service contracts to assist the     9/11/09      3/31/10
                            contractor staff in performing the reviews and the
                            Center in supervising them.
                            Take timely action to perform adequate post-
    9-18       8/25/09      purchase and charge-off reviews to ensure the              9/3/09       12/31/09
                            recovery of improper payments.

*     These are a subset of the universe of recommendations without final action.




                                                             32 

                                        Appendices



                                           Appendix VIII


                             Summary of Significant Recommendations 

                              October 1, 2009 through March 31, 2010



Report                                      Date
                     Title                                            Recommendation
Number                                     Issued
                                                      Have the Director of the Office of Financial
         Monitoring of Insurance                      Program Operations inform borrowers on the 36
 10-01   Coverage for Disaster Loan       10/20/09    loans with lapsed policies or insufficient coverage
         Recipients                                   that they must provide evidence of adequate
                                                      insurance coverage.
                                                      Determine the actions needed to achieve
         Monitoring of Insurance
                                                      compliance with statutory flood insurance
 10-01   Coverage for Disaster Loan       10/20/09
                                                      monitoring requirements and the cost implications
         Recipients
                                                      of achieving compliance.
                                                      Develop and execute a plan for achieving
                                                      compliance on existing and future loans.
         Monitoring of Insurance
                                                      Alternatively, if achieving compliance is
 10-01   Coverage for Disaster Loan       10/20/09
                                                      determined to be not cost effective, seek additional
         Recipients
                                                      funding or legislative change to the statutory flood
                                                      insurance requirement.
                                                      Revise SOP 50-52 to clarify what action(s)
         Monitoring of Insurance
                                                      servicing center personnel should take when
 10-01   Coverage for Disaster Loan       10/20/09
                                                      borrowers refuse to obtain required hazard
         Recipients
                                                      insurance.
                                                      Work with the Office of Financial Assistance to
         Application of Insurance                     resolve the two over-disbursements totaling
 10-03   Offsets for Gulf Coast           10/21/09    $44,481, of the $314,363 in over-disbursements
         Disaster Loans                               identified in this audit, that occurred after the loans
                                                      were transferred to the servicing centers.
                                                      Develop a plan to identify and address duplicate
                                                      benefits present in the remaining universe of Gulf
         Application of Insurance
                                                      Coast Hurricane Disaster Loans. At a minimum,
 10-03   Offsets for Gulf Coast           10/21/09
                                                      the plan should include steps to identify and
         Disaster Loans
                                                      review loans that have the greatest chance of
                                                      unidentified duplicate payments.
                                                      Implement procedures at the servicing centers that
         Application of Insurance                     require a timely re-verification of insurance
 10-03   Offsets for Gulf Coast           10/21/09    recoveries during the servicing of loans, preferably
         Disaster Loans                               between 6-months to 1 year after the file is
                                                      transferred to servicing.
                                                      Implement a reconciliation procedure in which a
                                                      staff member traces and agrees the Net Present
         Audit of SBA’s Fiscal Year                   Value in the Return on Assets calculation to the
 10-04                                    11/13/09
         2009 Financial Statements                    outputs generated by the Credit Subsidy Calculator
                                                      2 prior to posting the alignment entry in the
                                                      general ledger.




                                               33 

                                       Appendices



                                          Appendix VIII


                            Summary of Significant Recommendations 

                             October 1, 2009 through March 31, 2010



Report                                     Date
                    Title                                           Recommendation
Number                                    Issued
                                                     Develop policies and procedures to ensure the
         Audit of SBA’s Fiscal Year                  Return on Assets alignment entry is made after all
 10-04                                   11/13/09
         2009 Financial Statements                   credit reform loan guaranty activity has been
                                                     posted to the general ledger.
                                                     Enhance SBA’s procedures related to its in-depth
                                                     analysis of the valuation of the liability for loan
         Audit of SBA’s Fiscal Year                  guaranties and defaulted loan guaranty receivable
 10-04                                   11/13/09
         2009 Financial Statements                   balances to ensure the balances are properly
                                                     presented at the NPV in accordance with SFFAS
                                                     No. 2.
                                                     Improve the vulnerability tracking and monitoring
         Audit of SBA’s Fiscal Year
 10-04                                   11/13/09    process to include unresolved high and medium
         2009 Financial Statements
                                                     vulnerabilities in the JAAMS POA&M.
                                                     Ensure that the vulnerability reports are reviewed
         Audit of SBA’s Fiscal Year                  and analyzed on a regular basis. Periodically
 10-04                                   11/13/09
         2009 Financial Statements                   monitor the existence of necessary services and
                                                     protocols running on servers and network devices.
                                                     Develop a more thorough approach to track and
         Audit of SBA’s Fiscal Year                  mitigate patch management and configuration
 10-04                                   11/13/09
         2009 Financial Statements                   management vulnerabilities identified during
                                                     monthly scans.
                                                     Prevent users from connecting unauthorized
                                                     devices to the GSS network anonymously by
         Audit of SBA’s Fiscal Year
 10-04                                   11/13/09    developing and implementing procedures for
         2009 Financial Statements
                                                     ensuring mandatory domain authentication for IP
                                                     address issuance.
         Audit of SBA’s Fiscal Year                  Implement controls regarding the validation of
 10-04                                   11/13/09
         2009 Financial Statements                   physical access to the data center.
                                                     Implement procedures to control the process for
                                                     requesting and granting access to the E-Tran
         Audit of SBA’s Fiscal Year
 10-04                                   11/13/09    system, and implement procedures to retain the
         2009 Financial Statements
                                                     appropriate approval evidence for tracking and
                                                     validation.
         Audit of SBA’s Fiscal Year                  Implement a process to monitor the audit logs of
 10-04                                   11/13/09
         2009 Financial Statements                   all financial applications on a regular basis.
                                                     Implement procedures for documenting operating
                                                     system, software and emergency change testing
         Audit of SBA’s Fiscal Year
 10-04                                   11/13/09    results, testing approvals, and final approvals.
         2009 Financial Statements
                                                     Specifically, such procedures and controls need to
                                                     be applied for the LAN\WAN.




                                              34 

                                          Appendices



                                           Appendix VIII


                             Summary of Significant Recommendations 

                              October 1, 2009 through March 31, 2010



Report                                       Date
                     Title                                             Recommendation
Number                                      Issued
                                                        The Senior Policy Analyst in the Office of the
                                                        Administrator should coordinate with program
                                                        offices using end-user programs containing
         Audit of SBA’s Fiscal Year                     sensitive data, such as Personally Identifiable
 10-04                                     11/13/09
         2009 Financial Statements                      Information (PII) and financial data, to implement
                                                        end-user computing procedures in accordance with
                                                        the guidance provided by the Office of the Chief
                                                        Information Officer.
         Audit of SBA’s Fiscal Year                     Develop a tracking mechanism to ensure loans
 10-06   2009 Financial Statements –       12/15/09     awaiting charge-off for an extensive period are
         Management Letter                              quickly identified and processed.
         Audit of SBA’s Fiscal Year                     Oversee and enforce the authorization and
 10-06   2009 Financial Statements –       12/15/09     document retention of the clearance documents for
         Management Letter                              all employees and contractors.
         Audit of SBA’s Fiscal Year                     Require effective training programs for IT security
 10-06   2009 Financial Statements –       12/15/09     personnel.
         Management Letter
         Audit of SBA’s Fiscal Year                     Develop a method of monitoring the training
 10-06   2009 Financial Statements –       12/15/09     program to ensure compliance by all personnel
         Management Letter                              with IT security roles and responsibilities.
         SBA Regulations Relating to                    Revise Title 13 CFR, Part 124 to mandate that
         Unconditional Ownership            1/25/10     tribally-owned firms be unconditionally owned as
 10-07
         Requirements for Indian                        required by the Small Business Act.
         Tribes
                                                        Study the effect of allowing seller-financed
                                                        transactions to encumber ownership shares, and if
         SBA Regulations Relating to                    appropriate, revise Title 13 CFR, Part 124 to
         Unconditional Ownership            1/25/10     provide that a stock or other ownership interest
 10-07
         Requirements for Indian                        that is pledged or encumbered is not
         Tribes                                         unconditionally owned unless the pledge or
                                                        encumbrance occurs within an arms-length
                                                        transaction with a legitimate financial institution.
         SBA’s Efforts to Improve the                   Either update the Fiscal Year 2008 Data Quality
         Quality of Acquisition Data in                 Plan or revise the information notice to include
 10-08                                      2/26/10
         the Federal Procurement Data                   explicit steps that will be taken to ensure data is
         System                                         reviewed for accuracy and completeness.
         SBA’s Efforts to Improve the                   Conduct an independent review to ensure that the
         Quality of Acquisition Data in                 Data Quality Plan or information notice
 10-08                                      2/26/10
         the Federal Procurement Data                   requirements have been fully implemented.
         System
         SBA’s Efforts to Improve the                   Ensure that Office of Business Operations
         Quality of Acquisition Data in                 contracting personnel are held accountable for the
 10-08                                      2/26/10
         the Federal Procurement Data                   accuracy of Federal Procurement Data System
         System                                         data.




                                                 35 

                                        Appendices



                                           Appendix VIII


                             Summary of Significant Recommendations 

                              October 1, 2009 through March 31, 2010



Report                                      Date
                     Title                                            Recommendation
Number                                     Issued
                                                       Have the Associate Administrator for Capital
                                                       Access revise SOP 50 10, Lender Development
                                                       Company Loan Programs, to require that lenders
         Audit of Premier Certified                    use, among other things, (a) the actual cash flow
 10-10   Lenders in the Section 504        3/23/10     method to determine borrower repayment ability
         Loan Program                                  for businesses using accrual accounting, (b)
                                                       historical salary levels to estimate officer salary,
                                                       and (c) historical sales data to make sales
                                                       projections.
                                                       Have the Associate Administrator for Capital
                                                       Access develop a process to ensure that corrective
                                                       actions are taken in response to Office of Credit
                                                       Risk Management onsite reviews, and/or modify
         Audit of Premier Certified                    guidance for these reviews, as appropriate, to
 10-10   Lenders in the Section 504        3/23/10     ensure that reviewers properly assess lender
         Loan Program                                  determination of borrower repayment ability and
                                                       eligibility; including lender validation of financial
                                                       information used by borrowers to demonstrate
                                                       repayment ability and assessment of eligibility
                                                       based on achievement of public policy goals.
                                                       Have the Associate Administrator for Capital
                                                       Access revise current guidance to clarify how
         Audit of Premier Certified
                                                       eligibility should be evaluated in order to ensure
 10-10   Lenders in the Section 504        3/23/10     the intent of the CDC/504 Loan Program is met
         Loan Program
                                                       when the Federal budget reduction public policy
                                                       goal is used to qualify a borrower for a CDC loan.
                                                       Evaluate the need to establish monetary or other
         Audit of Premier Certified                    guidelines on the level of excess funds that CDCs
 10-10   Lenders in the Section 504        3/23/10     should retain as a reserve for future operations
         Loan Program                                  and/or invest in other local economic development
                                                       activities.
                                                       Issue a Procedural Notice for performing data
         SBA Readiness for Reviewing                   quality reviews over contract recipient reports,
 ROM
         Recipient Reports on the Use     10/30/09     which incorporates specific, detailed instructions
 10-01
         of Recovery Act Funds                         for using FederalReporting.gov, and other relevant
                                                       instructions provided in the OFPP Memorandum.
                                                       Have the Associate Administrator for Management
                                                       and Administration define its process for
         SBA Readiness for Reviewing
 ROM                                                   reviewing Microloan intermediary reports that
         Recipient Reports on the Use     10/30/09
 10-01                                                 incorporates specific, detailed instructions for
         of Recovery Act Funds
                                                       using FederalReporting.gov, and other relevant
                                                       instructions provided in the OMB M-09-21.




                                                36 

                                        Appendices



                                           Appendix VIII


                             Summary of Significant Recommendations 

                              October 1, 2009 through March 31, 2010



Report                                      Date
                     Title                                            Recommendation
Number                                     Issued
                                                       Provide training to loan officers on (1) the
         Notice of Finding and
                                                       calculation of goodwill and the importance of
         Recommendation on
 ROM                                                   adjusting assets to their book values or appraised
         Recovery Act Loans Involving      12/2/09
 10-03                                                 values in performing their calculations, and (2)
         Change of Ownership
                                                       applying change of ownership requirements to
         Transactions
                                                       loans involving the refinancing of seller debt.
         Notice of Finding and                         Establish a process for granting policy waivers
         Recommendation on                             approved by the Associate Administrator for
 ROM
         Recovery Act Loans Involving      12/2/09     Capital Access or higher official that provides the
 10-03
         Change of Ownership                           necessary independence and is supported by risk-
         Transactions                                  based justifications.
         Review of Controls Over Job                   Implement a data quality review and testing
         Creation and Retention                        process to determine if job data is properly
 ROM
         Statistics Reported by SBA        12/4/09     recorded, classified, and reported.
 10-04
         under the American Recovery
         and Reinvestment Act of 2009
         Review of Controls Over Job                   Improve the transparency and accountability of the
         Creation and Retention                        reported data by disclosing the number of jobs
 ROM
         Statistics Reported by SBA        12/4/09     associated with disbursed loans in the monthly
 10-04
         under the American Recovery                   Recovery Act Program Performance Reports.
         and Reinvestment Act of 2009
         Review of Controls Over Job                   Establish adequate guidance on how lenders
         Creation and Retention                        should report jobs created and retained for 7(a)
 ROM
         Statistics Reported by SBA        12/4/09     loans.
 10-04
         under the American Recovery
         and Reinvestment Act of 2009
         Notice of Finding and                         Remind lenders of the SBA requirement to obtain
         Recommendation on                             borrower certification of compliance with
 ROM     Recovery Act Loans                            immigration laws prior to loan disbursement.
 10-05   Disbursed Without the            12/10/09
         Required Borrower
         Immigration Certifications
                                                       Upon request for guaranty purchase of SBA
         Notice of Finding and
                                                       Recovery Act loans that received increased SBA
         Recommendation on
                                                       guaranties, require lenders to submit borrower
 ROM     Recovery Act Loans
                                          12/10/09     certifications of compliance with immigration
 10-05   Disbursed Without the
                                                       laws, and cancel or reduce the SBA guaranty for
         Required Borrower
                                                       any loan made for which the lender cannot furnish
         Immigration Certifications
                                                       the required certification.
                                                       Have the Chief Financial Officer post the
         Lack of Controls to Ensure                    correcting entry to the general ledger to reverse the
 ROM
         Recovery Act Payroll is          12/15/09     American Recovery and Reinvestment Act of 2009
 10-08
         Complete and Accurate                         Salary & Expense correcting Journal Voucher in
                                                       the amount of $5,283.95.




                                                37 

                                        Appendices



                                           Appendix VIII


                             Summary of Significant Recommendations 

                              October 1, 2009 through March 31, 2010



Report                                      Date
                     Title                                            Recommendation
Number                                     Issued
                                                       Have the Chief Financial Officer ensure the correct
         Lack of Controls to Ensure
 ROM                                                   parameters are used to generate the payroll Journal
         Recovery Act Payroll is          12/15/09
 10-08                                                 Voucher report so that the report is inclusive of all
         Complete and Accurate
                                                       payroll activity.
         Lack of Approval for a                        Develop and implement policies and procedures to
 ROM
         Recovery Act Surety Bid          12/15/09     monitor aged outstanding Preferred Surety Bond
 10-09
         Bond Guarantee                                bid bond approvals.
                                                       Require intermediaries to provide 3 months worth
                                                       of bank statements with each quarterly financial
                                                       report submitted to SBA and revise the review
         SBA’s Administration of the                   process to include an analysis of the sources and
 ROM
         Microloan Program under the      12/28/09     uses of MRF and LLRF funds. This process
 10-10
         Recovery Act.                                 should assist in detecting inappropriate fund
                                                       transfers between the intermediaries’ accounts,
                                                       which are indications of program weaknesses and
                                                       misuses of funds.
         SBA’s Administration of the                   Develop a staffing plan and hire and train the
 ROM
         Microloan Program under the      12/28/09     additional staff required to provide an adequate
 10-10
         Recovery Act.                                 level of program oversight.
                                                       Examine, verify, and test microloan data reported
                                                       by the intermediaries in Microloan Program
         SBA’s Administration of the                   Electronic Reporting System to ensure loan
 ROM
         Microloan Program under the      12/28/09     defaults are accurately reported and that obvious
 10-10
         Recovery Act.                                 inaccuracies and questionable transactions
                                                       reported by intermediaries are identified and
                                                       resolved.
                                                       Develop additional performance metrics to
         SBA’s Administration of the
 ROM                                                   measure the program’s achievement in assisting
         Microloan Program under the      12/28/09
 10-10                                                 microloan borrowers in establishing and
         Recovery Act.
                                                       maintaining successful small businesses.
                                                       Require intermediaries to report in MPERS the
                                                       technical assistance provided in relation to each
         SBA’s Administration of the
 ROM                                                   microloan made and use this data to analyze the
         Microloan Program under the      12/28/09
 10-10                                                 effect technical assistance may have on the success
         Recovery Act.
                                                       of microloan borrowers and their ability to repay
                                                       microloans.
                                                       Have the Associate Administrator for Capital
         Notice of Finding and                         Access require the lenders to bring each of the
 ROM     Recommendation on                             loans listed in Appendix I (Ineligible Lender
                                           1/22/10
 10-11   Ineligible Lender-Approved                    Approved Loans) into compliance, or, if not
         Recovery Act Loans                            possible, cancel or adjust the SBA guaranties
                                                       accordingly.




                                                38 

                                          Appendices



                                           Appendix VIII


                             Summary of Significant Recommendations 

                              October 1, 2009 through March 31, 2010



Report                                       Date
                     Title                                             Recommendation
Number                                      Issued
         Notice of Finding and                          Implement the appropriate system controls to
         Recommendation on Material                     automatically identify the outstanding balances of
 ROM     Origination and Closing                        all SBA loans made to a borrower to ensure SBA
                                           3/31/2010
 10-12   Deficiencies Identified in SBA                 lending limits will not be exceeded upon the
         and Lender-Approved                            approval of a subsequent loan.
         Recovery Act Loans
         Notice of Finding and                          Require Wachovia SBA Lending, Inc. to bring
         Recommendation on Material                     loan number 3406815002 into compliance with
 ROM     Origination and Closing                        SBA requirements, or, if not possible, flag the loan
                                           3/31/2010
 10-12   Deficiencies Identified in SBA                 as having an equity injection deficiency for
         and Lender-Approved                            consideration during the purchase review should
         Recovery Act Loans                             the loan default and purchase be requested.




                                                 39 

                                               Appendices



                                            Appendix IX 

                   Events/Activities Where SBA Used its Cosponsorship Authority* 

                                    Small Business Act, Section 4(h) 

                              October 1, 2009 through March 31, 2010



Name/Subject of Event               Name of Cosponsor(s)                Date(s) of Event       Location of Event
     Discussion and
Informational Seminar for       The Commonwealth of Virginia -            November 17,
                                                                                                  Richmond, VA
   Small Businesses in              Office of the Governor                   2009
        Virginia
  New York DO Annual
                                New York Business Development             November 17,
Lender Awards for Fiscal                                                                           Jamaica, NY
                                         Corporation                         2009
       Year 2009
                                Regional Contracting Assistance           January 22,
Selling to the Government
                                Center, Charleston WV SCORE               February 26,           World Wide Web
         Webinars
                                          Chapter #256                   March 26, 2010
                                 INNOVA Commercialization
                               Group, WVHTC Foundation, WVU
                                 Research Corporation, Higher            November 30,
   2009 Mid-Atlantic
                                 Education Policy Commission,             December 1,            Morgantown, WV
 SBIR/STTR Conference
                               Division of Science and Research,        December 2, 2009
                               Dinsmore & Shohl LLC, Steptoe &
                                         Johnson, PLLC
 Business Workshop and         Business Diversity Institute, Kaiser       November 12,
                                                                                                   Portland, OR
  Matchmaking Event                        Permanente                        2009
                                 Southern University and A&M
 6th Annual "Connecting        College Center for Rural and Small
 Business with Contracts"          Business Development and              March 23, 2010          Baton Rouge, LA
 Procurement Conference         Louisiana Procurement Technical
                                        Assistance Center
                               Connecticut Small Business-Key to
                                                                         Late May, Early
Small Business Week 2010          the Future, Hartford Business                                         TBD
                                                                              June
                                             Journal
   I-FEM Network and               View From the Top, A&M                 October 2009 -
                                                                                               El Paso County Area
      Training Event                      Montoya, Inc.                   October 2010
  Financing Your Small          United Way of Delaware, State of
                                                                          November 24,
     Business Growth            Delaware, Office of Lt. Governor                                  Wilmington, DE
                                                                             2009
         Workshop                        Matthew Denn
 Series: Women Business
  Workshop: "Marketing
                                Business and Professional Women          March 10, 2009            Towson, MD
 Strategies in a Struggling
         Economy"
2010 SBA Maryland Small
                                 Maryland Small Business Week
  Business Week Awards                                                    May 21, 2010            Woodlawn, MD
                                     Awards Program, Inc.
         Breakfast

*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
     been held. This information has not been verified by the OIG.




                                                         40 

                                               Appendices



                                         Appendix IX 

                   Events/Activities Where SBA Used its Cosponsorship Authority* 

                                    Small Business Act, Section 4(h) 

                              October 1, 2009 through March 31, 2010



Name/Subject of Event               Name of Cosponsor(s)                Date(s) of Event       Location of Event
                                                                          December 17,
                                                                        2009, January 13,
                                                                           February 17,
                                                                         March 18, April
SBA/KIP Entrepreneurial
                                    The Kip Business Report             15, May 13, June          New York, NY
Potential Workshop Series
                                                                           17, July 15,
                                                                            August 12,
                                                                          September 16,
                                                                              2010
                                   Morgan State University
                                 Entrepreneurial Development
 Export Trade Assistance
                               Center, Greater Baltimore SCORE
Partnership - Breaking into                                                 TBD/2010                 TBD/MD
                                  Chapter #3, Department of
     the Trade Game
                                  Commerce/US Commercial
                                           Services
  Conference for Latino
                                The Central America Chamber of
Entrepreneurs - Conference                                               January 30, 2009         Santa Ana, CA
                                Commerce of Southern California
   Empresarios Latinos
Series of informational and                                              December 2009 -
                                           Google, Inc.                                          World Wide Web
    educational videos                                                   December 2011
  Annual Celebration of        Small Business Awards Foundation,
                                                                           June 3, 2010           Richmond, VA
Small Business in Virginia                    Inc.
   Federal Contracting
                                 Impact Foundation Procurement           January 2010 -
  Workshops & Training                                                                             North Dakota
                                       Assistance Center                 December 2010
 Seminars North Dakota
                               Memphis & Shelby County Office
                               of Economic Development, Office
                                                                          April 2010 -
           e200                    of the Mayor of the City of                                     Memphis, TN
                                                                         November 2010
                               Memphis and Office of the Mayor
                                        of Shelby County
 Financial Resources for          Coachella Valley Women’s
  Small Business/Small         Business Center, Coachella Valley
                                                                         February 3, 2010       Rancho Mirage, CA
Business Resource Forum               Economic Partnership
        & Expo
                                New York Business Development
                               Corporation, M&T Bank, Onondaga
 OPERATION: Start Up             Community College, Onondaga
                                                                         March 18, 2010            Syracuse, NY
     and Grow                     Small Business Development
                                      Center, Anaren, Inc.


*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet been
     held. This information has not been verified by the OIG.




                                                          41 

                                                Appendices



                                               Appendix IX 

                    Events/Activities Where SBA Used its Cosponsorship Authority* 

                                     Small Business Act, Section 4(h) 

                               October 1, 2009 through March 31, 2010



Name/Subject of Event                Name of Cosponsor(s)                Date(s) of Event       Location of Event
Small Business Excellence       New York Business Development             May 7; May 10,          Syracuse; Albany,
  Award Recognition                        Corporation                        2010                      NY
                                City of Burlington - Community &
                                 Economic Development Office,
    Winter Business Fair           Champlain Valley Office of            February 11, 2010         Burlington, VT
                                 Economic Opportunity - Micro
                                 Business Development Program
    Cleveland Business to
                                The Council of Smaller Enterprises,
    Business Matchmaker                                                   May 11-12, 2010          Cleveland, OH
                                      Group Services, Inc.
            2010
                                 Small Business Week of Eastern
Small Business Week 2010                                                  May 10-15, 2010           St. Louis, MA
                                          Missouri, Inc.
                                 North Carolina- North Carolina
                                  Small Business & Technology
 Veterans Small Business           Development Center, North
                                                                           April 28, 2010             Cary, NC
       Conference               Carolina Military Business Center,
                                   Cary Chamber of Commerce

    Six video segments
  targeting SBA Hall of
 Fame members, a printed
and online workbook/guide                                                  January 2010 -
                                  Automatic Data Processing, Inc.                                 World Wide Web
 supplement provided by                                                   January 15, 2013
the Hall of Fame members
   with content on SBA
  programs and services
                                  South Carolina Chamber of
                                Commerce, University of South
                                  Carolina thru Small Business
                                 Development Center of South
                                    Carolina, South Carolina
                               Department of Commerce, ECI/Find
                               New Markets, Midlands SC SCORE
 Salute to Small Business                                                  May 12, 2010             Columbia, SC
                                    Chapter, South Carolina
                                   Manufacturing Extension
                                Partnership, U.S. Department of
                                Agriculture - Rural Development
                               Administration, U.S. Department of
                               Commerce - U.S. Export Assistance
                                      Center, SC Launch!

*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          42 

                                                Appendices



                                           Appendix IX 

                    Events/Activities Where SBA Used its Cosponsorship Authority* 

                                     Small Business Act, Section 4(h) 

                               October 1, 2009 through March 31, 2010



Name/Subject of Event                Name of Cosponsor(s)                Date(s) of Event       Location of Event
    Cosponsorship Brand,
    Website, Preparedness
                                                                         February 1, 2010 -
    Webinars and Business           Agility Recovery Solutions                                    World Wide Web
                                                                          January 30, 2012
    Preparedness Planning
            Guide
                                    North Texas Small Business
                                   Development Center Network,
                                     Dallas Black Chamber of
                                 Commerce, Greater Dallas Asian
                                 American Chamber of Commerce,
                                  Minority Business Development            April 2010 -
            e200                                                                                      Dallas, TX
                                    Agency, US Department of              November 2010
                                Commerce, Greater Dallas Hispanic
                                  Chamber of Commerce, Dallas
                                SCORE Chapter 22, City of Dallas-
                                 Office of Economic Development,
                                           State of Texas
                                  AMEC Earth & Environmental,
                                Inc., The City of Philadelphia City
                                  Hall, Delaware Valley Industrial
                                   Resource Center, The Greater
                                      Philadelphia Chamber of
                                Commerce, Hispanic Association of
                                 Contractors and Enterprises, PNC          April 2010 -
            e200                                                                                  Philadelphia, PA
                                    Bank, SCORE, Philadelphia             November 2010
                                    Chapter #, Urban League of
                                    Philadelphia, Inc., Women’s
                                Business Enterprise Council of PA-
                                  DE-NJ/WBC, Asian American
                                 Chamber of Commerce of Greater
                                  Philadelphia, Continental Bank

*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          43 

                                              Appendices



                                           Appendix IX 

                  Events/Activities Where SBA Used its Cosponsorship Authority* 

                                   Small Business Act, Section 4(h) 

                             October 1, 2009 through March 31, 2010



Name/Subject of Event              Name of Cosponsor(s)                Date(s) of Event       Location of Event
                              Bankers Trust, Business Innovation
                                   Zone, City of Des Moines,
                                   Corporation for Economic
                              Development, Des Moines SCORE,
                                Greater Des Moines Partnership,
                                 Iowa Department of Economic
                                Development, Iowa State Bank,            April 2010 -
          e200                                                                                   Des Moines, IA
                                 ISED Ventures, Neighborhood            November 2010
                                Development Corporation, State
                              Public Policy Group, United Way of
                                 Central Iowa, US Bank, Wells
                                    Fargo, Des Moines Area
                                Community College, Venturenet
                                       Iowa, Iowa SBDC
                               Jacksonville Regional Chamber of
                               Commerce, Jacksonville Women’s
                                  Business Center, Jacksonville
                                  SCORE #86, Small Business
                                                                         April 2010 -
          e200                     Development Center at the                                     Jacksonville, FL
                                                                        November 2010
                              University of North Florida, Beaver
                                    Street Enterprise Center,
                                     Jacksonville Economic
                                   Development Commission
                                   The Atlanta Development
                               Authority, The Atlanta Workforce          April 2010 -
          e200                                                                                     Atlanta, GA
                                 Development, Agency, Atlanta           November 2010
                                       SCORE Chapter 4
                                   Detroit Economic Growth
                                  Corporation, Detroit Regional
                                  Chamber, Mayor’s Office of
                                Targeted Business Development,
                               Michigan Economic Development             April 2010 -
          e200                                                                                     Detroit, MI
                                Corporation, Michigan Minority          November 2010
                                Business Development Council,
                                  Michigan Small Business and
                               Technology Development Center,
                                           TechTown

*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.




                                                        44 

                                              Appendices



                                         Appendix IX 

                  Events/Activities Where SBA Used its Cosponsorship Authority* 

                                   Small Business Act, Section 4(h) 

                             October 1, 2009 through March 31, 2010



Name/Subject of Event              Name of Cosponsor(s)                Date(s) of Event       Location of Event
                               Hispanic American Chamber of
                                 Commerce, City of Boston -
                                Department of Neighborhood
                                 Development, University of
                               Massachusetts - Massachusetts
                                Small Business Development
                              Centers, Boston SCORE Chapter              April 2010 -
          e200                                                                                     Boston, MA
                                  20, Center for Women and              November 2010
                               Enterprise, Massachusetts State
                               Office of Women and Minority
                             Business Assistance, Boston Private
                                Bank & Trust, Century Bank,
                               Mercantile Bank & Trust, First
                              Trade Union Bank, Webster Bank
                             Maryland SBDC – Central Region,
                               Greater Baltimore SCORE # 3,
                               Baltimore City Small Business
                                  Resource Center, Women
                              Entrepreneurs of Baltimore, Inc.,
                              Maryland Department of Business
                                and Economic Development,
                                Greater Baltimore Committee,
                                                                         April 2010 -
          e200               Baltimore City Chamber, University                                  Baltimore, MD
                                                                        November 2010
                                of Baltimore-Entrepreneurial
                              Opportunity Center, Morgan State
                                 University – Entrepreneurial
                             Development & Assistance, Greater
                                Baltimore Black Chamber of
                             Commerce, Baltimore City Hispanic
                               Chamber of Commerce, Greater
                                   Baltimore Urban League
24th Annual Reservation
 Economic Summit &               National Center for American           February 22-24,
                                                                                                 Las Vegas, NV
American Indian Business        Indian Enterprises Development               2010
      Trade Fair
                                                                         February 18,
                                                                        March 18, April
                             Dutchess County Regional Chamber
Small Business Workshops                                               15, May 20, June        Poughkeepsie, NY
                                       of Commerce
                                                                       17, September 16,
                                                                       October 21, 2010

*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.




                                                        45 

                                                Appendices



                                           Appendix IX 

                    Events/Activities Where SBA Used its Cosponsorship Authority* 

                                     Small Business Act, Section 4(h) 

                               October 1, 2009 through March 31, 2010



Name/Subject of Event                Name of Cosponsor(s)                Date(s) of Event       Location of Event
  New Mexico Small
                                   Santa Fe Community College
 Business Week Awards                                                       June 3, 2010          Albuquerque, NM
                                   through New Mexico SBDC
      Event 2010
    Small Business
    Development &                     Louisville Urban League              June 23, 2010           Louisville, KY
   Contracting Expo
                                      ACCION New Mexico,
                                 Albuquerque Hispano Chamber of
                                 Commerce, Albuquerque SCORE
                                  Chapter 67, Central New Mexico
                                Community College - Albuquerque
                                    Small Business Development
                                 Center, American Indian Chamber
                                of Commerce of New Mexico, Inc.,
                                  City of Albuquerque, Economic
                                 Development Department , City of
                                    Gallup, Greater Albuquerque
                                Chamber of Commerce , NAWBO-
                                    Northern New Mexico , New
                                 Mexico 8(a) & Minority Business
                                                                           April 2010 -           Albuquerque and
    Native American e200             Association, New Mexico
                                                                          November 2010             Gallup, NM
                                  Department of Veterans Services,
                                    New Mexico Manufacturing
                                Extension Partnership, New Mexico
                                    Rural Entrepreneur Institute,
                                University of New Mexico - Gallup
                                    Small Business Development
                                  Center , South Valley Economic
                                Development Center, Northern New
                                   Mexico College - South Valley
                                    Small Business Development
                                  Center, The Loan Fund, WESST,
                                  Zia Pueblo, Zuni Entrepreneurial
                                Enterprises Inc., Gallup – McKinley
                                   County Chamber of Commerce
                                   National Center for American
                                  Indian Enterprise Development,
                                    American Indian Chamber of             April 2010 -         Phoenix and Tucson,
    Native American e200
                                  Commerce of Arizona, American           November 2010                 AZ
                                 Indian Chamber Education Fund –
                                               PTAC

*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          46 

                                                Appendices



                                           Appendix IX 

                    Events/Activities Where SBA Used its Cosponsorship Authority* 

                                     Small Business Act, Section 4(h) 

                               October 1, 2009 through March 31, 2010



Name/Subject of Event                Name of Cosponsor(s)                Date(s) of Event       Location of Event
                                                                           April 2010 -          Oklahoma City and
    Native American e200        Rural Enterprises of Oklahoma, Inc.
                                                                          November 2010              Tulsa, OK
  The Black Business            Chase, Alpha Phi Alpha Fraternity,
                                                                          March 31, 2010             Detroit, MI
   Conference 2010                            Inc.
    2010 National
   Microenterprise                   Association for Enterprise
                                                                          May 10-13, 2010         Crystal City, VA
Conference and Training                 Opportunity (AEO)
       Institute
                                                                            February 25,
 EDGE: Educate to Drive                                                  March 11, March
                                Seal Beach Chamber of Commerce,
and Grow the Economy of                                                  25, April 8, April        Seal Beach, CA
                                        Boeing Company
       Seal Beach                                                       22, May 6, May 20,
                                                                            June 3, 2010
                                Ohio Department of Development,
                                   Ohio Business Connection,
                                   Southern Ohio Procurement
     2010 Ohio Business           Outreach Center, Aeronautical
                                                                         March 23-24, 2010           Dayton, OH
        Matchmaker               Systems Center Small Business
                                Office, Defense Logistics Agency,
                                  Edison Materials Technology
                                             Center
                                 SCORE Columbus Chapter #27,
How to Make It Work for
                                    Economic & Community                 February 20, 2010         Columbus, OH
 You and Your Business
                                      Development Institute
     La Dinamica de los
     Contratos Federales             Colegio de Ingenieros y
                                                                           April 16, 2010           San Juan, PR
    (Federal Contracting           Agrimensores de Puerto Rico
    Matchmaking Event)
                                                                           March 12, 26,
Export Trade Assistance         Irvine Chamber of Commerce, U.S.
                                                                          April 9, 23, May            Irvine, CA
       Program                          Commercial Service
                                                                           14, 28, 2010
 Connecticut Expo for            Hartford Business Journal, Metro
                                                                           June 10, 2010            Hartford, CT
        Business                        Hartford Alliance
  STEP Stimulate the
                                      City of Parris California            April 14, 2010             Perris, CA
   Economy of Perris
Future of Small Business
                                       Brookings Institution              March 15, 2010          Washington, DC
       Workshop

*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          47 

                                                Appendices



                                           Appendix IX 

                    Events/Activities Where SBA Used its Cosponsorship Authority* 

                                     Small Business Act, Section 4(h) 

                               October 1, 2009 through March 31, 2010



Name/Subject of Event                Name of Cosponsor(s)                Date(s) of Event       Location of Event
                                  CA Native American Chamber,
                                   National Center for American
                                  Indian Enterprise Development,
                                                                           April 2010 -
    Native American e200           University of Redlands - The                                    Santa Ana, CA
                                                                          November 2010
                                Redlands Institute, American Indian
                                     Chamber of Commerce of
                                             California
                                  City of Milwaukee - Milwaukee
                                      Economic Development
                                 Corporation, Milwaukee SCORE
                                 Chapter 28, Wisconsin Women’s
                                     Business Initiative Corp ,
                                Manpower, Inc, Greater Milwaukee
                                    Committee, Small Business              April 2010 -
    Native American e200                                                                           Milwaukee, WI
                                 Development Center Milwaukee,            November 2010
                                Potawatomi Business Development
                                   Corporation, Oneida Tribe of
                                Indians , American Indian Chamber
                                    of Commerce, Metropolitan
                                 Milwaukee Sewerage District, WI
                                     Department of Commerce
Train Your People-Grow
                                     West Hartford Chamber of            September 2010 -
 Your Business Seminar                                                                           West Hartford, CT
                                           Commerce                         June 2011
         Series
Series GC/BD Workshops               Rhode Island Procurement            March 1, 2010 -
                                                                                                    Area wide RI
 and Matchmaker Events              Technical Assistance Center         December 31, 2011
    Women's Business                                                    September 9, 2010
                                        First National Bank                                         Buffalo, WY
       Roundtables                                                       - May 12, 2011
 22nd Annual High-Tech
  Conference for Small           Jet Propulsion Laboratory/NASA           March 1-3, 2010         Los Angeles, CA
        Business
                                 Waterbury Regional Chamber of
Business Women's Forum                                                       TBA 2010              Waterbury, CT
                                          Commerce
     Women's Business                                                    September 1, 2010
                                   First State Bank of Newcastle                                   Newcastle, WY
       Roundtables                                                         - May 5, 2011
                                Jefferson Chamber of Commerce,
                                  Louisiana Minority Business
                               Council, University of Louisiana at
                               Monroe, SCORE, State of Louisiana           April 2010 -
    Native American e200                                                                          New Orleans, LA
                                    - Department of Economic              December 2010
                                 Development, Urban League of
                                 Greater New Orleans and Urban
                               League's Women's Business Center

*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.


                                                          48 

                                                Appendices



                                           Appendix IX 

                    Events/Activities Where SBA Used its Cosponsorship Authority* 

                                     Small Business Act, Section 4(h) 

                               October 1, 2009 through March 31, 2010



Name/Subject of Event                Name of Cosponsor(s)                Date(s) of Event       Location of Event
                                 Oregon Native American Chamber
                                of Commerce, ONABEN, A Native
                                 American Business Network, City
                                of Portland, Bureau of Development         April 2010 -
    Native American e200                                                                            Portland, OR
                                   Services, Portland Community           November 2010
                                     College - Small Business
                                    Development Center, Port of
                                              Portland
                                Rocky Mountain Indian Chamber of
                                Commerce, Native American Bank,
                                Rocky Mountain Minority Supplier
                                   Development Council, City of
                                     Aurora - Aurora Business              April 2010 -
    Native American e200                                                                             Denver, CO
                                   Development Center, Colorado           December 2010
                                 SBDC, Denver Metro Chamber of
                                    Commerce, SCORE Denver
                                   Chapter and Denver Business
                                              Journal
  Rhode Island Minority
                                  Hispanic American Chamber of             October 12-15,
 Enterprise Development                                                                              Warwick, RI
                                            Commerce                           2010
          Week
                                 Illinois Department of Commerce
                                and Economic Opportunity Illinois
                                                                           April 2010 -
            e200                 Entrepreneurship Network Small                                      Chicago, IL
                                                                          November 2010
                                  Business Development Centers,
                                Office of the Illinois State Treasurer
Seven Facets of Business
                                   Fayette County Public Library           April 29, 2010          Fayetteville, GA
      Ownership
                                Ohio Department of Development,
                                 thru, Entrepreneurship and Small
                                    Business Division, Minority
                                Business Enterprise Division, Small
                                  Business Development Center,
From Planning to Funding:
                                   Minority Contractor Business
 Learn All the Options to                                                 March 11, 2010             Dayton, OH
                                 Assistance Program, Procurement
   Fund Your Business
                                   Technical Assistance Center,
                                  Columbus SCORE Chapter 27,
                                 Ohio SBDC - The Entrepreneurs
                                 Center, Dayton SCORE Chapter #
                                                107

*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          49 

                                                Appendices



                                           Appendix IX 

                    Events/Activities Where SBA Used its Cosponsorship Authority* 

                                     Small Business Act, Section 4(h) 

                               October 1, 2009 through March 31, 2010



Name/Subject of Event                Name of Cosponsor(s)                Date(s) of Event       Location of Event
                                     Empire State Economic
                                    Development, Long Island
                                 Development Corporation, Long
Small Business Financing        Island Small Business Assistance
                                                                            April 9, 2010         Farmingdale, NY
         2010                     Corporation, New York State
                                University at Farmingdale through
                                  Small Business Development
                                              Center
     B2G Matchmaking            Business Development Assistance
                                                                           June 16, 2010          Washington, DC
     Opportunities 2010                       Group
                                                                        April 23, June 25,
                                   The State Journal, Huddleston
                                                                        August 27, October
    Business for Breakfast        Bolen, LLP, SCORE Charleston                                     Charleston, WV
                                                                          22, December
                                           Chapter 0256
                                                                           TBD, 2010
                                    ASTRA, Women’s Business
                                    Alliance, Business Diversity
 American Recovery Act            Institute, Hispanic Metropolitan
Event: Meet the Lenders &        Chamber of Commerce, Business             April 21, 2010           Portland, OR
    Meet the Buyers             Oregon – State of Oregon Economic
                                 Development Department, Kaiser
                                   Permanente, Bank of America
                                 Rose State College through Small
                                Business Development Center, The
                                     Journal Record Publishing
Oklahoma Small Business
                                  Company, Oklahoma Center for              April 6, 2010         Midwest City, OK
    Awards Program
                                   Advancement of Science and
                                Technology, Oklahoma Department
                                 of Commerce, Bullet Productions
    Small Business Week
                                 Worcester Business Development
     Awards Breakfast -                                                     June 8, 2010           Worcester, MA
                                           Corporation
     Recognition Event
                                Antioch University - Seattle, United       April 2010 -
    Native American e200                                                                             Seattle, WA
                                 Indians of All Tribes Foundation         December 2010
Dynamic Contracting for
                                  U.S. Army Corps of Engineers             April 21, 2010           Fairmont, WV
     Small Business
 4th Annual Heritage &
                                                                         March 30 - April 1,
    Cultural Tourism                   Sitka Tribe of Alaska                                          Sitka, AK
                                                                               2010
      Conference
 Small Business Week
  Breakfast & Awards             Puerto Rico Bankers Association           May 20, 2010             San Juan, PR
       Ceremony

*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          50 

                                                Appendices



                                           Appendix IX 

                    Events/Activities Where SBA Used its Cosponsorship Authority* 

                                     Small Business Act, Section 4(h) 

                               October 1, 2009 through March 31, 2010



Name/Subject of Event                Name of Cosponsor(s)                Date(s) of Event       Location of Event
                                  NC Department of Revenue,
                                 Internal Revenue Service, NC
                                                                          June 23, 24, 25,
Tax Workshop Webinars          Department of Community Colleges                                   World Wide Web
                                                                               2010
                                Small Business Centers, Charlotte
                                             SCORE
                                 New York State Department of
                               Labor, Division of Employment and
                               Workforce Solutions, Office of New
 Entrepreneurship & Job
                               York State Assemblywoman Grace               April 7, 2010           Flushing, NY
        Fair 2010
                                 Meng, Office of New York City
                               Council Member Peter, Koo, F & T
                                              Group
                                 The Enterprise Center, City of
    Philadelphia Economic
                                     Philadelphia City Hall,
     Recover Procurement                                                    April 6, 2010         Philadelphia, PA
                                Pennsylvania Convention Center
           Summit
                                            Authority
                                North Carolina Small Business &
                                Technology Development Center,
Veterans Small Business         North Carolina Military Business
                                                                           August 5, 2010         Jacksonville, NC
      Conference               Center, City of Jacksonville, North
                                   Carolina, Coastal Carolina
                                      Community College
                               University of Hartford through The
25th Anniversary Business                                                  May 11, 2010 -
                                Entrepreneurial Center, Women’s                                     Hartford, CT
    Plan Competition                                                       June 15, 2010
                                        Business Center

*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          51 

                                         Appendices



                                       Appendix X


                                   Legal Actions Summary
                            October 1, 2009 through March 31, 2010

                                                                                              Investigated
State   Program       Alleged Violation(s) Prosecuted                 Legal Action
                                                                                              Jointly With
 CO       BL      The part-owner of a construction company       Part-owner pled guilty       FBI
                  received two SBA-guaranteed loans totaling     and was sentenced to 37
                  $1.35 million. In order to obtain the SBA      months in prison, 60
                  loans, he hid his criminal history, which      months supervised
                  would have precluded him from receiving        release, and $975,424 in
                  the loans.                                     restitution.

 FL       DL      An individual used her sister’s Social         Individual pled guilty       SSA/OIG,
                  Security account number without her            and was sentenced to 15      NFPD, USPIS
                  authorization to secure a $41,700 SBA          months in prison, 5 years
                  disaster business loan, a $25,000              supervised release, and
                  SBAExpress loan, and a $30,000 business        $97,008 in restitution.
                  line of credit. The SBA disaster business
                  loan was obtained to alleviate economic
                  injury caused by Hurricane Wilma to a
                  women’s apparel store that the individual
                  owned.

 FL       DL      The manager of a construction company          Charged via criminal         FBI
                  applied for a $239,300 SBA economic injury     information.
                  disaster loan (EIDL) for his company after
                  Tropical Storm Fay hit in August 2008. It is
                  alleged that he misrepresented the status of
                  several pending foreclosures in order to get
                  approved for the EIDL and then provided
                  SBA with altered title reports to hide those
                  foreclosures, as well as other undisclosed
                  adverse items.

GA        BL      An individual is alleged to have falsely       Individual indicted.         None
                  represented his company’s gross sales and
                  falsely indicated that he had no previous
                  criminal history when applying for a $1.8
                  million SBA-guaranteed loan.

 IA       BL      An individual enlisted “front” borrowers and   Individual sentenced to      FBI
                  provided a non-bank lender with false and      2 years in prison, 3 years
                  fraudulent documentation in order to get an    supervised release, and
                  SBA-guaranteed loan and two other loans        $2,008,964 in restitution.
                  approved. The three loans, totaling over $4
                  million, were to be used for the purchase of
                  three gas stations in Iowa.




                                                  52 

                                          Appendices



                                           Appendix X


                                    Legal Actions Summary 

                             October 1, 2009 through March 31, 2010



                                                                                                Investigated
State   Program       Alleged Violation(s) Prosecuted                    Legal Action
                                                                                                Jointly With
 IL       BL      The former owner of a finance company             Former owner sentenced      FBI
                  provided fraudulent equity injection              to 135 months in prison,
                  documentation to a non-bank lender in order       5 years supervised
                  to influence the approval of a $1.35 million      release, and $7,412,884
                  SBA-guaranteed loan for one of his                in restitution. After his
                  companies. He also brokered 46 other loans,       prison term, he will be
                  totaling $44,314,371, mostly for the purchase     deported to India.
                  of gas stations and convenience stores, and
                  provided false information to the same lender
                  for the majority of these loans.

 LA       DL      An individual and his wife submitted              Wife sentenced to 36        DHS/OIG,
                  fraudulent receipts in support of an SBA          months probation and a      HUD/OIG
                  disaster home loan and an SBA disaster            $1,500 fine. Husband
                  business loan totaling approximately              previously sentenced.
                  $220,000. The couple claimed damages from         Restitution of $119,728
                  Hurricane Katrina to their residence and to       paid to SBA prior to
                  the wife’s day care business, which was           sentencing.
                  located at the same address.

 LA       DL      An individual allegedly submitted misleading      Individual pled guilty to   USDA/OIG
                  documentation which caused SBA to believe         a criminal information
                  that he had contracted for repairs to his         and was sentenced to
                  residence; in reality, he had only received an    36 months probation,
                  estimate for these repairs. Based on the          restitution to the SBA in
                  misleading information, SBA approved a            the amount of $57,777,
                  loan of $106,300 for damages caused by            and a fine of $2,000.
                  Hurricane Katrina.

 LA       DL      An individual received $50,000 in SBA             Individual charged via      HUD/OIG
                  disaster loan funds by allegedly using an         criminal information.
                  address on his application that was not his
                  primary residence at the time Katrina struck.
                  It is also alleged that he submitted fraudulent
                  receipts to induce SBA to approve the loan.

 LA       DL      An individual applied for an SBA physical         Individual sentenced to     HUD/OIG
                  disaster loan for property that she did not       69 months in federal
                  own at the time Hurricane Katrina hit New         prison, 3 years
                  Orleans. She received $75,000 in SBA              supervised release, and
                  disaster loan funds.                              restitution of $156,761.
 LA       DL      An individual submitted false construction        Individual sentenced to 3   None
                  contracts, fraudulent purchase receipts, and      years probation and
                  altered quotes in order to obtain an SBA          restitution of $16,730.
                  disaster home loan of $77,200.



                                                    53 

                                           Appendices



                                           Appendix X


                                    Legal Actions Summary 

                             October 1, 2009 through March 31, 2010



                                                                                                 Investigated
State   Program       Alleged Violation(s) Prosecuted                     Legal Action
                                                                                                 Jointly With
 LA       DL      A borrower submitted altered and fictitious        Individual pled guilty to   FBI
                  documents to SBA in order to receive a             a criminal information.
                  $68,400 disaster home loan and a $70,000
                  disaster business loan. After the loans were
                  approved, he submitted altered and fictitious
                  contracts and invoices for home repairs
                  purporting the work was complete in order to
                  mislead SBA and influence disbursement of
                  funds. The borrower also falsely represented
                  that his used auto dealership was reopening
                  in order to entice SBA to disburse disaster
                  business loan funds.

 LA       DL      An individual made false statements and            Individual pled guilty to   HUD/OIG
                  submitted false documents to SBA in order to       a criminal information.
                  receive a physical disaster loan of $38,800        Husband pled guilty to
                  for Hurricane Katrina damages. Instead of          misprision of a felony
                  using the SBA loan to repair the family            for concealing
                  home, the individual and her husband used          knowledge of his wife’s
                  the SBA disaster relief funds, as well as          felony.
                  $150,000 in Louisiana Road Home funds, to
                  open a pizza restaurant.

MD        GC      A former West Virginia state employee              Individual sentenced to     EPA/CID,
                  provided confidential bid information to a         12 months and one day       NCIS,
                  contractor allowing the company to come in         incarceration, 6 months     IRS/CID, FBI
                  as the lowest bidder on state contracts. The       home confinement, 3
                  individual awarded the contracts to the            years supervised release,
                  company and in return received money and           and a $3,000 fine.
                  other things of value from the company.

MD        BL      The owner of a restaurant equipment outlet         Owner of equipment          None
                  entered into an agreement with the vice            outlet pled guilty to a
                  president of a restaurant to perform               criminal information.
                  construction/renovation work and provide           Prosecution of restaurant
                  equipment at a cost of $145,000. The two           vice president continues.
                  allegedly conspired to falsely inflate the total
                  cost of the project in order to obtain a
                  $417,000 SBA-guaranteed loan. The
                  contractor returned $97,000 of the loan
                  proceeds back to the borrower.




                                                     54 

                                         Appendices



                                          Appendix X


                                   Legal Actions Summary 

                            October 1, 2009 through March 31, 2010



                                                                                                Investigated
State   Program       Alleged Violation(s) Prosecuted                   Legal Action
                                                                                                Jointly With
MD        BL      An accountant embezzled over $125,000            Accountant sentenced to      EPA/CID,
                  from her employer, a former 8(a) certified       30 days in jail, 5 months    NCIS,
                  firm, and omitted the amount as taxable          home confinement, 1          IRS/CID, FBI.
                  income on her income tax return.                 year probation, and
                                                                   restitution of $33,624.

 MI       BL      An individual and his co-conspirators used       Individual sentenced to      USSS
                  counterfeit bank documents and checks to         24 months incarceration
                  verify the required borrower equity injections   and ordered to pay
                  on at least nine SBA-guaranteed loans. In        $5,672,929 in restitution
                  addition, he used a fraudulently obtained        jointly with other co-
                  check in the amount of $1,680,000 to             conspirators.
                  purchase a house with the intent to promptly
                  resell or “flip” the property to a straw buyer
                  who would use 100% financing to pay a
                  substantially inflated price for the house.

 MI       BL      An individual acted as a broker and recruited    Individual pled guilty.      USSS
                  “straw buyers” to fraudulently obtain 12
                  SBA-guaranteed loans by falsifying equity
                  injections and loan disbursements on HUD
                  settlement statements.

MO        BL      Two bank officers, an SBA branch manager,        Seventeen individuals        FBI
                  two business consultants, and numerous           have been charged. To
                  borrowers are alleged to be involved in a        date, two have pled
                  complex bank fraud scheme involving              guilty.
                  fraudulent loans totaling over $10 million.
                  The scheme used nominee borrowers to
                  falsely obtain SBA-guaranteed loans and
                  involved making false entries in bank records
                  and structuring loans to avoid scrutiny by
                  bank personnel.

NY        BL      An individual defrauded a number of federal      Individual fled to Israel    ED/OIG,
                  and state grant, loan, and subsidy programs,     prior to the unsealing of    IRS/CID, FBI,
                  including an SBA program designed to             the original indictment in   HUD/OIG,
                  provide venture capital to small, minority-      1997. He was arrested in     SSA/OIG
                  owned businesses.                                the United Kingdom in
                                                                   2008 and extradited to
                                                                   the U.S. where he pled
                                                                   guilty in March 2010.




                                                   55 

                                               Appendices



                                                Appendix X


                                         Legal Actions Summary 

                                  October 1, 2009 through March 31, 2010



                                                                                                    Investigated
 State    Program           Alleged Violation(s) Prosecuted                  Legal Action
                                                                                                    Jointly With
  NY          BL       A member of an organized group of foreign        Individual pled guilty.     USPIS
                       nationals obtained six SBAExpress loans
                       totaling $290,000 using false identities,
                       documents, and businesses.

  TX          BL       A Louisiana petroleum corporation falsified      Company pled guilty and     IRS/CID
                       the true source of funds to support its          was ordered to pay a fine
                       required $120,000 equity injection in order to   of $200,000
                       secure a $480,000 SBA-guaranteed loan.

  TX          BL       Thirteen individuals allegedly conspired to      Loan broker indicted and    FBI, IRS/CID
                       submit fraudulent loan applications in order     pled guilty. Twelve
                       to secure loan proceeds from various lenders,    others indicted.
                       most of them SBA-certified. The complex
                       loan fraud scheme also involves money
                       laundering of the ill-gotten gains. The
                       fraudulent loan requests exceed $8 million.

  WA          BL       The owner of a now-defunct disaster              Owner pled guilty to a      IRS/CID
                       restoration business submitted inflated          criminal information and
                       invoices for work performed, which resulted      was sentenced to 48
                       in the company receiving over $3 million         months in prison, 60
                       more in insurance payments than it was           months supervised
                       entitled. The owner sold the business to a       release, $4,935,974 in
                       buyer who obtained a $1,999,800 SBA-             restitution, and 120
                       guaranteed loan to fund a portion of the sale.   hours of community
                       The inflated financial statements were           service.
                       submitted to the lender to support the value
                       of the business and the purchase price. The
                       owner then used the fraudulently obtained
                       loan proceeds to purchase a $1.785 million
                       home in Florida.


Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Section 8(a) Business
Development.

Joint-investigation Federal Agency Acronyms: DHS/OIG=Department of Homeland Security/Office of Inspector General;
ED/OIG=Department of Education/OIG; EPA/CID=Environmental Protection Agency/Criminal Investigations Division;
FBI=Federal Bureau of Investigation; HUD/OIG=Housing and Urban Development/OIG; IRS/CID=Internal Revenue
Service/CID; NCIS= Naval Criminal Investigative Service; NFPD=Naples Florida Police Department; SSA/OIG=Social
Security Administration/OIG; USDA/OIG=U.S. Department of Agriculture/OIG; USPIS=United States Postal Inspection
Service; USSS=United States Secret Service




                                                         56 

                                           Appendices



                                            Appendix XI 

                                    Small Business Administration 

                                     Office of Inspector General 


The OIG has four divisions that perform the key functions described.

    •		 The Auditing Division performs financial, information technology and other mandated audits,
        program performance reviews, and internal control assessments, and oversees audits by
        contractors to promote the economical, efficient, and effective operation of SBA programs.

    •		 The Investigations Division manages a program to detect and deter illegal and/or improper
        activities involving SBA programs, operations, and personnel. The criminal investigations staff
        carries out a full range of traditional law enforcement functions. The security operations staff
        ensures that all Agency employees have the appropriate background investigations and security
        clearances for their duties. They also conduct the name check program, which provides SBA
        officials with character-eligibility information on loan applicants and other potential program
        participants.

    •		 The Counsel Division provides legal and ethics advice to all OIG components, represents the
        OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
        enforcement matters, processes subpoenas, responds to Freedom of Information and Privacy Act
        requests, and reviews and comments on proposed Agency policies, regulations, legislation, and
        procedures.

    •		 The Management and Policy Division provides business support (e.g., budget/financial
        management, human resources, information technology, and procurement) for the various OIG
        functions, coordinates the preparation of the Semiannual Report to Congress and the Report on
        SBA’s Management Challenges, and develops OIG strategic and performance plans.

The OIG is headquartered in Washington, DC, and has field staff located in Atlanta, GA; Chicago, IL;
Dallas/Fort Worth, TX; Detroit, MI; Denver, CO; Herndon, VA; Houston, TX; Kansas City, MO;
Los Angeles, CA; Miami, FL; New Orleans, LA; New York, NY; Philadelphia, PA; Tacoma, WA; and
Washington, DC.

An organization chart for the OIG is shown on page 59.




                                                    57 

This page intentionally left blank.




                58 

                                                                      Appendix XI 

                                                              Small Business Administration 

                                                               Office of Inspector General 



                                                                          Inspector
                                                                           General                                         Counsel Division

                                                                      Deputy Inspector
                                                                         General




           Auditing Division                                                               Investigations Division                         Management and Policy
                                                           Security Operations
                                                                                                                                                 Division
59




                                 Business Development
      Credit Programs
                                   Programs Group
          Group                                                                  Eastern Region          Central Region           Southern Region      Western Region

                                    Washington, DC
         Atlanta, GA
                                                                                   Atlanta, GA             Chicago, IL               Houston, TX          Denver, CO

                                   Los Angeles, CA
         Chicago, IL                                                               Herndon, VA                                     New Orleans, LA
                                                                                                            Dallas, TX                                  Los Angeles, CA

        Herndon, VA             Financial Management
                                     & IT Group                                     Miami, FL
                                                                                                           Detroit, MI                                   Tacoma, WA

       Washington, DC
                                    Washington, DC                                                       Kansas City, MO
                                                                                  New York, NY


     Recovery Oversight
          Group                Disaster Assistance Group                         Philadelphia, PA


                                 Dallas/Fort Worth, TX
       Herndon, VA                                                               Washington, DC


      Washington, DC               New Orleans, LA
                           Make A Difference! 


  To promote integrity, economy, and efficiency, we encourage you to report instances of
             fraud, waste, or mismanagement to the SBA OIG HOTLINE.*




                                        Online: 

                                 http://www.sba.gov/ig/




                                           Call: 

                                This page intentionally left blank.
                               1-800-767-0385 (Toll Free)




                                Write or Visit: 

                           U.S. Small Business Administration 

                               Office of Inspector General


                                 Investigations Division 

                            409 Third Street, SW. (5th Floor) 

                                 Washington, DC 20416 





*Upon request, your name will be held in confidence.
